                                                                                Semiannual Report to the Congress




              INSPECTOR GENERAL ACT REPORTING REQUIREMENTS
The table below cross-references the specific pages in this semiannual report to the reporting
requirements prescribed by the Inspector General Act of 1978 (Public Law 95-452), as amended. I

      IG Act
                                             Reporting Requirements                                         Page
    References
   Section 4(a)(2)    “review existing and proposed legislation and regulation…make                         27-29
                      recommendations... ”
   Section 5(a)(1)    “description of significant problems, abuses, and deficiencies... ”                    1-25
   Section 5(a)(2)    “description of recommendations for corrective action…with respect to                 17-25
                      significant problems, abuses, and deficiencies... ”
   Section 5(a)(3)    “identification of each significant recommendation described in previous              26-27
                      semiannual reports on which corrective action has not been completed... ”
   Section 5(a)(4)    “a summary of matters referred to prosecutive authorities and the prosecution          1-10
                      and convictions which have resulted... ”
   Section 5(a)(5)    “a summary of each report made to the [Secretary of Defense] under section             N/A
                      6(b)(2)... ” (instances where information requested was refused or not
                      provided)
   Section 5(a)(6)    “a listing, subdivided according to subject matter, of each audit report             32-43, 44
                      issued...” showing dollar value of questioned costs and recommendations that
                      funds be put to better use.
   Section 5(a)(7)    “a summary of each particularly significant report... ”                               17-25
   Section 5(a)(8)    “statistical tables showing the total number of audit reports and the total dollar    44, 47
                      value of questioned costs... ”
   Section 5(a)(9)    “statistical tables showing the total number of audit reports and the dollar            45
                      value of recommendations that funds be put to better use by management... ”
   Section 5(a)(10)   “a summary of each audit report issued before the commencement of the                   45
                      reporting period for which no management decision has been made by the end
                      of reporting period... ”
   Section 5(a)(11)   “a description and explanation of the reasons for any significant revised              N/A
                      management decision... ”
   Section 5(a)(12)   “information concerning any significant management decision with which the             N/A
                      Inspector General is in disagreement... ”
   Section 5(a)(13)   “information described under Section 804 [sic] of the Federal Financial                N/A
                      Management Improvement Act of 1996... ” (instances and reasons when an
                      agency has not met target dates established in a remediation plan)
   Section 8(f)(1)    “information concerning the number and types of contract audits... ”                    46
Semiannual Report to the Congress                                                                                       Table of Contents


                                                 TABLE OF CONTENTS

                                                                                                                                           Page
SIGNIFICANT ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Criminal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
   Directorate for Reprisal Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
   Senior Official Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
   Inspections and Policy. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
   Auditing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
   Significant Open Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
   Comments on Legislation/Testimony . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
   Intelligence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDICES
  A. Reports Issued by Central DoD Internal Audit Organizations . . . . . . . . . . . . . . . . . . . 32
  B. OIG DoD Audit Reports Issued Containing Quantifiable Potential
         Monetary Benefits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44
  C. Followup Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
  D. Contract Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46
  E. Status of Action on Significant Post-Award Contract Audits . . . . . . . . . . . . . . . . . . . . 48

FIGURES
   1. Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
   2.  DoD Total Senior Official Cases - FY 99 - FY 03 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
   3. Nature of Substantiated Allegations Against Senior Officials
         During 2nd Half FY 03 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
   4. Breakdown of Sexual Assaults at the Air Force Academy by Class
          Year of Graduation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
   5. IG and Audit Agency Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
                                                                  Semiannual Report to the Congress


                                         FOREWORD

        On October 14, 2003, President George W. Bush met in the White House with federal
Inspectors General, the undersigned included, on the occasion of commemorating the 25th
anniversary of the Inspector General Act of 1978. The Inspector General Act of 1978 was signed
into law on October 12, 1978. This Act and subsequent amendments established offices of
Inspector General throughout the federal government. The President observed that Inspectors
General serve the vital role of promoting trust by the American people in the institutions of their
government. The Inspector General Act charges each Inspector General to “provide leadership and
recommend policies designed (A) to promote economy, efficiency and effectiveness in the
administration of, and (B) to prevent and detect fraud and abuse” in the programs and operations of
their agencies. The trust of the American public in their government requires confidence that the
institutions of their government are acting in their interest by using funds effectively and
efficiently. For 25 years, Inspectors General have sought to promote integrity, efficiency, and
effectiveness in the programs and operations of government.

       Recent efforts by this office to fulfill the Inspector General mission include:

       •   Public Confidence in Integrity of DoD Programs and Operations: The Inspector General
           of Housing and Urban Development issued a final “unqualified opinion” on the audit
           function of the Office of the Inspector General. The achievement of the unqualified “per
           review” opinion is the culmination of a great deal of effort to move from a previous
           “qualified opinion.”

       •   Strategic Management of Human Capital: Completed Phase I of the OIG transformation
           by: (a) hiring Mr. Francis “Gene” Reardon, formerly the Auditor General of the Army, to
           be the Deputy Inspector General for Auditing; and (b) standing up a new Deputy Inspector
           General for Inspections and Policy which established the Inspections and Evaluations
           Directorate under the leadership of Deputy Inspector General L. “Jerry” Hansen. Initially,
           this new Directorate is focusing on the sexual climate at the Military Academies, human
           trafficking, support to Combatant Commands and Joint IG doctrine and training.

       •   Improved Support to Combatant Commanders: The first rotation of OIG personnel has
           returned from service in Iraq, including RADM Larry Poe, USNR, the Deputy Inspector
           General for Intelligence, who completed a tour as the first Inspector General to
           Ambassador Bremer. A joint OIG team developed a “Quick Look” report to assess force
           protection risks associated with non-fissile radiological contamination in Iraq. The
           Inspector General and his four Deputies met with the Joint Forces Command Deputy
           Commander and staff to review possibilities for partnering.
                                                        Semiannual Report to the Congress




SIGNIFICANT ACTIVITIES

INTRODUCTION     This report summarizes the significant activities of the Office of the
                 Inspector General of the Department of Defense (OIG DoD)
                 components and their work with other members of the DoD oversight
                 and federal law enforcement communities.

CRIMINAL         The four Defense Criminal Investigative Organizations (DCIOs)
INVESTIGATIONS   continue to combat crimes affecting the Department of Defense (DoD).
                 The Defense Criminal Investigative Service (DCIS) has focused its
                 investigative priorities on terrorism, technology protection, product
                 substitution, computer crime, financial crime, public corruption, and
                 major thefts. The U.S. Army Criminal Investigation Command
                 (USACIDC), the Naval Criminal Investigative Service (NCIS), and the
                 Air Force Office of Special Investigations (AFOSI) also investigate
                 procurement fraud, but their primary mission focus concentrates on
                 terrorism, force protection, general crimes cognizant under the
                 Uniformed Code of Military Justice, and crimes affecting major
                 weapons systems within their respective Military Departments. The
                 AFOSI and NCIS also conduct counterintelligence investigations and
                 operations. The DCIOs continue to work together to support anti-
                 terrorism investigations and participate as members of Joint Terrorism
                 Task Forces (JTTFs). The DCIOs work cooperatively to resolve cases
                 that impact more than one Military Service.

                 Monetary recoveries and fines related to all criminal investigations
                 conducted by the DCIOs totaled more than $615.6 million. Figure 1
                 (page 2) displays other statistical results achieved by the investigative
                 organizations during the semiannual reporting period. The following are
                 examples of significant cases.

Terrorism        After the tragic events of September 11, 2001, the OIG DoD moved to
                 enhance law enforcement efforts in the prevention of terrorist attacks.
                 The DCIS special agents are working at multiple JTTF locations around
                 the country and in Iraq, in addition to doing their traditional work of
                 ensuring our warfighters have the best and safest equipment to
                 accomplish their missions.

                      •   As a result of a DCIS investigation, the director of an
                          international charity organization was convicted of violating the
                          racketeering provision of the Organized Crime Control Act. Our
                          investigation produced evidence to establish that the director



                                     1
Semiannual Report to the Congress




                              Judicial and A dm inistrative A ctions

                                           C onvictions       Indictm ents   D ebarm ents   Suspensions

                    T errorism                  18                10

                    P rocurem ent/
                                                47                54
                    H ealth C are F raud
                                                                                 78             45
                    O ther                     188                155


                    T otal                     253                219




                                                      Figure 1


                                           conspired to conduct the international charity organization as a
                                           criminal enterprise, through multiple schemes to defraud donors,
                                           while concealing the fact that donated funds were being used to
                                           support groups engaged in violent activities overseas. The
                                           director was sentenced to 136 months confinement, 36 months
                                           supervised released, and ordered to pay restitution of $315,624.

                                      •    An individual in Ohio was convicted and sentenced to 3 years
                                           probation, 6 months home confinement, ordered to pay a $2,000
                                           fine, ordered to perform 50 hours of community service, and
                                           ordered to undergo mental health counseling for mailing two
                                           letters that contained a white powdery substance and threatened to
                                           kill a DoD employee.

Technology                            •    An Israeli firm and its director were found guilty of illegally
Protection                                 smuggling Hawk and AIM-9 missile parts into the United States
                                           by falsely representing the value and contents of the packages.
                                           The director was sentenced to 3 years probation and ordered to
                                           pay restitution of $43,475 and a $5,000 fine. The company was
                                           sentenced to 5 years probation and ordered to pay restitution of
                                           $43,475 and a $25,000 fine. Both were debarred from doing
                                           business with the U.S. Government for 3 years.




                                                          2
                                                          Semiannual Report to the Congress




                       •   A Florida freight forwarder was convicted of conspiring with two
                           other individuals and their foreign companies to cause illegal
                           exports of U.S. Munitions List items in violation of the Arms
                           Export Control Act. The Florida company was sentenced to
                           5 years probation and ordered to pay a $50,000 fine. The owner
                           was sentenced to 24 months incarceration and 3 years probation.
                           The owners of the foreign companies were sentenced to a total of
                           30 months confinement, 6 years probation, and ordered to pay a
                           $50,000 fine.

                       •   A German national was sentenced to 30 months incarceration and
                           36 months probation after pleading guilty to attempting to export
                           military aircraft engines to Libya, an embargoed country, without
                           a license from the U.S Department of State, Office of Defense
                           Trade Controls, and without authorization from the U.S.
                           Department of Treasury, Office of Foreign Asset Control.

Product Substitution   •   A major Defense contractor in the aviation industry agreed to pay
and Contract               $3.2 million to the Government as part of a civil settlement to
Noncompliance              resolve allegations of defective pricing and delivery of a defective
                           product. It was alleged that the aviation contractor was providing
                           DoD with defective electrical components for the AH-64, Apache
                           Attack Helicopter, and engaging in defective pricing.

                       •   A major Defense contractor in Pennsylvania paid $651,663 in a
                           civil settlement to resolve a claim that the contractor historically
                           failed to meet contract specifications by failing to ensure welding
                           personnel were certified or qualified for the work required and
                           consequently supplying non-conforming aircraft parts.

                       •   Based on a qui tam complaint, a major Defense contractor
                           reached a $3.3 million civil settlement agreement with the
                           government resolving allegations of false claims, common law
                           fraud, payment by mistake, unjust enrichment, and breach of
                           contract. This joint investigation revealed that a defectively
                           connected chip detector caused a warning light to illuminate on
                           board certain aircraft, which forced pilots to make unnecessary
                           precautionary landings. No accidents were attributed to the
                           problem. The investigation showed the contractor knew about the
                           problem since the mid-1980s but made no efforts to repair it until
                           1991. Of the settlement, $1.85 million was split among eight
                           helicopter program contracts, $75,000 to the Department of
                           Justice, and $1.4 million to the qui tam relator.


                                       3
Semiannual Report to the Congress




                                    •   In California, a Defense contractor, a subcontractor, and several
                                        of their senior executives were levied fines totaling $29,000, paid
                                        $42,873 in restitution, and were sentenced to various prison terms
                                        for submitting false statements and conspiracy. Working on an
                                        allegation received from the Suspected Unapproved Parts Task
                                        Force, a joint federal investigation centered on two variations of
                                        suspected counterfeit electrical contacts and their related confor-
                                        mance certifications. The investigation revealed that 100 suspect
                                        counterfeit contacts were sold to a Defense aircraft contractor and
                                        some were used in a fire control wire harness assembly, which
                                        was installed on a military aircraft.

                                    •   A Texas Defense contractor and its owner pled guilty to mail
                                        fraud and conspiracy for selling substandard plate assembly
                                        adapters to the military. The adapters could cause oil leaks and
                                        presented a flight safety concern. The contractor was ordered to
                                        pay $155,359 in restitution and a $400 special assessment. The
                                        owner was sentenced to 5 years probation.

                                    •   A major airline company, which provides maintenance work on
                                        C-17 engines for the DoD, agreed to a $3.2 million civil settle-
                                        ment to resolve allegations of improper repair and testing of the
                                        engines. During the investigation, interviews with former and
                                        current employees revealed that the company did not properly
                                        repair or test the engines as contractually required.

Computer Crime                      •   An individual in Alabama pled guilty to breaking into federal
                                        computer systems, stealing credit card information, and defacing
                                        approximately 37 web sites, to include DoD sites. This individual
                                        was sentenced to 2 years probation and was ordered to pay restitu-
                                        tion of $7,275 and a $1,800 special assessment.

                                    •   A DoD employee in Virginia pled guilty to coercion and entice-
                                        ment of a minor for illegal sexual activity. He was sentenced to
                                        46 months confinement and 3 years supervised release. This
                                        individual used his government computer in the commission of
                                        these offenses.

                                    •   A DoD employee in Richmond, Virginia, pled guilty to receiving
                                        child pornography. He used his government computer in the
                                        commision of this crime. The employee was sentenced to
                                        30 months confinement and 3 years supervised release.




                                                    4
                                                     Semiannual Report to the Congress




Financial Crime   •   Three divisions of a major Defense contractor were suspended
                      from government contracting as a result of the filing of criminal
                      charges of theft of trade secrets against two managers of this
                      contractor in California. Allegedly, proprietary data was stolen
                      from another DoD contractor, who was competing for the same
                      DoD contract, regarding the Evolved Expendable Launch Vehicle
                      Program.

                  •   A Florida Defense contractor and two affiliated companies were
                      each sentenced for providing false invoices for cable television
                      contracts at DoD installations in the United States and Japan,
                      during Base Realignment and Closure termination settlement
                      proposals. The three companies were ordered to pay fines totaling
                      $8 million, a forfeiture of $8,075,445, restitution of $5,454,720,
                      special assessments totaling $1,600, and each company was
                      sentenced to 5 years probation.

                  •   A major Defense contractor in Virginia paid $60 million in a civil
                      settlement with the government to resolve allegations that it
                      falsely and fraudulently claimed improper costs against govern-
                      ment contracts with the U.S. Navy for shipbuilding and ship
                      repairs. The contractor allegedly charged a significant amount of
                      commercial labor costs to research and development, resulting in
                      greatly inflated costs being improperly allocated to its govern-
                      ment contracts.

                  •   A major Defense contractor in the telecommunications industry in
                      California agreed in an administrative settlement to allocate
                      $4.1 million in payments to government contracts. It was alleged
                      that over a period of 7 years, the contractor improperly allocated
                      indirect expenses to business areas resulting in over-allocation to
                      government contracts. The contractor also allegedly obstructed a
                      Defense Contract Audit Agency (DCAA) audit by denying the
                      existence of and failing to provide requested information.

                  •   Based on a qui tam filed by a former financial control director, a
                      major Defense contractor agreed to a civil settlement of $111.2
                      million as part of a civil settlement resolving allegations that it
                      overcharged the government on contracts in violation of the False
                      Claims Act. A joint investigation found that company employees
                      engaged in five separate schemes that increased costs for medium
                      launch vehicle contracts with the military and the National
                      Aeronautics and Space Administration from 1990 and 1997.


                                  5
Semiannual Report to the Congress




                                        Under provisions of the agreement, the former employee received
                                        $27.2 million.

                                    •   In Florida, a joint investigation based on allegations that a major
                                        government contractor defectively priced a Foreign Military Sales
                                        contract resulted in a $37.9 million civil settlement. The company
                                        allegedly defectively priced the contract to create a budget
                                        reserve, to purchase obsolete parts for future contracts, to pay
                                        fines for defective pricing on other contracts, and to pay illegal
                                        foreign commissions.

                                    •   A former contractor employee, who was working as a technical
                                        specialist for a high profile Navy program, pled guilty to
                                        conspiracy and was sentenced to 24 months confinement, 3 years
                                        probation, and was ordered to pay $290,291 in restitution. An
                                        investigation found that he diverted labor hours and paid his
                                        wife’s company $310,032 to scan logistics documents into a data-
                                        base at their residence. Ninety percent of the jobs were charged to
                                        his government-issued credit card. The civilian employee’s wife
                                        also pled guilty to conspiracy and was sentenced to150
                                        consecutive days of in-home detention, 5 years probation, and
                                        was ordered to pay restitution.

                                    •   During a Defense contractor’s bankruptcy proceedings, it was
                                        learned that numerous employee pension plans, funded by a
                                        military service as part of a missile test range contract, were over-
                                        funded. When another Defense contractor purchased the bankrupt
                                        company in late 1991, it terminated all pre-existing pension plans,
                                        paid out entitlements, and retained the remaining monies.
                                        Contractually, the new contractor was required to return any
                                        excess to the service upon termination of the plan. Based on a
                                        joint investigation, the Department of Justice accepted a civil
                                        settlement agreement for violations of cost accounting standards
                                        and the Federal Acquisition Regulation and a settlement of $41
                                        million from the new contractor.

                                    •   As a result of plea agreements on charges of wrongful use of
                                        others’ credit card information, three civilian employees of a
                                        military exchange and a civilian received prison sentences and
                                        monetary fines. A joint investigation disclosed that two
                                        employees, during the course of their normal duties, obtained
                                        patrons’ credit card and personal information. Those employees
                                        and the others later used the information to place orders on the


                                                    6
                                                 Semiannual Report to the Congress




                  exchange’s catalog website and then altered billing addresses to
                  ensure billings were not received before shipment delivery. One
                  employee received 27 months confinement and 3 years super-
                  vised release; the second employee received a 10-month sentence
                  and 3 years of supervised release; and the third employee received
                  2 years probation and 3 years supervised release. The civilian
                  received a 10-month sentence and 3 years supervised release. All
                  three were ordered to pay $100 special assessments and are
                  jointly responsible for restitution of $143,521.

Bribery and   •   A DoD member of the senior executive service and his executive
Kickbacks         assistant were found guilty of conspiracy to commit money
                  laundering, conspiracy to obstruct justice to include extortion, and
                  for making false statements, and were ordered to forfeit
                  $2,053,226 and one BMW automobile valued at $46,000 for
                  abusing their official positions for private enrichment. They had
                  previously been suspended from government contracting.

              •   A former five-term mayor of Bridgeport, Connecticut, and ten
                  associates were found guilty of various charges including
                  racketeering, interference with commerce by threats or violence,
                  extortion, mail fraud, bribery, conspiracy, and filing a false
                  income tax return. The mayor was sentenced to 108 months
                  confinement, 3 years probation, and ordered to pay a $150,000
                  criminal fine and a $1,600 special assessment. Additionally, the
                  mayor was ordered to make $148,617 in restitution to the govern-
                  ment. The mayor accepted bribes from contractors working on
                  contracts for the city of Bridgeport, Connecticut, which included
                  contracts funded by Base Realignment and Closure projects. The
                  ten associates were sentenced to a total of 71 months confine-
                  ment, 33 years probation, ordered to pay fines totaling
                  $1,102,700, special assessments totaling $1,700, and ordered to
                  perform a total of 2,250 hours of community service.

              •   A Navy civilian employee at Red Hill Fuel Storage Facility in
                  Pearl Harbor, Hawaii, pled guilty to conflict of interest and kick-
                  back violations and was sentenced to 3 years probation, 6 months
                  of home detention, 100 hours of community service, and was
                  ordered to pay a $10,000 fine and a $200 assessment fee. The
                  Navy employee improperly worked as a subcontractor for a
                  company he inspected in his position as a government employee.




                              7
Semiannual Report to the Congress




                                    •   An Army colonel was sentenced to 54 months of federal custody,
                                        36 months of supervised release, ordered to pay a $10,000 fine
                                        and $300 special assessment, and was caused to forfeit $729,329
                                        as a result of a plea agreement concerning his involvement in
                                        accepting bribes from government contractors in return for
                                        providing procurement sensitive information. Charges filed
                                        against the colonel and 34 other government employees stationed
                                        with military forces in Korea included: aiding and abetting;
                                        blackmail; bribery; confidential information disclosure; conspir-
                                        acy; interception of communications; money laundering; obstruc-
                                        tion of justice, and Procurement Integrity Act violations. The
                                        colonel’s wife was sentenced to 24 months supervised release,
                                        fined $5,000 plus a $100 assessment, and ordered to undergo
                                        psychiatric treatment. One civilian employee was sentenced to
                                        24 months federal custody, 36 months supervised release, and
                                        fined $5,000 plus a special $200 assessment. Another was
                                        sentenced to 18 months federal custody, 36 months supervised
                                        release, and fined $4,000 plus a $200 assessment. A fourth
                                        accomplice was sentenced to 6 months home detention, 30
                                        months supervised release, and fined $5,000 plus a $200 assess-
                                        ment. Action remains to be taken on the additional subjects of the
                                        joint investigation.

Government Purchase                 •   The brother of a former Pentagon employee was convicted and
Card Fraud                              sentenced to 48 months confinement, 3 years supervised release,
                                        and ordered to pay restitution of $1.63 million and a $100 special
                                        assessment for his involvement with two Pentagon employees in
                                        the theft of $1.7 million. The brother and the two employees
                                        devised a scheme to defraud the government through the Govern-
                                        ment Purchase Card Program by submitting invoices for audio-
                                        visual and printing services, which were never provided, from the
                                        brother’s fictitious company. The two employees were previously
                                        sentenced and their employment terminated.

                                    •   A Defense Commissary Agency employee in Marysville,
                                        Washington, pled guilty to possession of child pornography and
                                        theft of government property and was sentenced to 30 months
                                        confinement, 3 years probation, and ordered to pay restitution of
                                        $613. The employee used his assigned government purchase card
                                        to purchase personal items, including the child pornography,
                                        which was kept at the government facility where the employee
                                        worked.




                                                   8
                                                   Semiannual Report to the Congress




                •   A U.S. Army Corps of Engineers employee, his girlfriend, and a
                    vendor located in southern California, pled guilty to bribery and
                    wire fraud charges for their collusive relationship in a scheme to
                    defraud the government through false Government Purchase Card
                    billings. The vendor was sentenced to 1 year and 1 day confine-
                    ment and ordered to pay restitution of $267,000. The Army
                    employee’s girlfriend was sentenced to 3 years probation and
                    ordered to pay restitution of $16,205. The Army employee is
                    awaiting sentencing. The Army, through its employee, had
                    contracted with the vendor to provide video services documenting
                    construction projects. In carrying out the scheme, the vendor was
                    paid for more than 100 fraudulent invoices, totaling in excess of
                    $267,000, the proceeds of which were split with the Army
                    employee.

Medical Fraud   •   A major health care corporation agreed to a civil settlement of
                    $54 million to resolve allegations of unnecessary cardiac
                    procedures and surgeries. The settlement agreement was based on
                    allegations that physicians at one of the health care corporation’s
                    hospitals performed numerous unnecessary cardiac procedures, to
                    include interventional cardiology procedures and cardiac surgery
                    that were not medically necessary. In additional to the medical
                    risks to the patients, the medically unnecessary procedures
                    resulted in the submission of alleged fraudulent claims to the
                    Medicare, Medicaid, and TRICARE programs. The settlement
                    represents the largest recovery in the history of the Department of
                    Justice in a case alleging lack of medical necessity.

                •   A major pharmaceutical manufacturer agreed to pay $354.9
                    million to resolve criminal charges and civil liabilities for
                    violating the Prescription Drug Marketing Act. The settlement is
                    the result of a qui tam lawsuit alleging fraudulent drug pricing
                    and marketing practices with regard to an advanced prostate
                    cancer drug. Specifically, the pharmaceutical manufacturer
                    provided illegal incentives and/or kickbacks to physicians in
                    return for their exclusive use of the prostate cancer drug. In
                    addition, many physicians allegedly sold the pharmaceutical
                    samples of the drug to patients and then fraudulently billed a
                    variety of federal health care programs, including the Civilian
                    Health and Medical Program of the Uniformed Services
                    (CHAMPUS), the predecessor of TRICARE. In addition to the
                    pharmaceutical manufacturer, one doctor was sentenced to 1 year
                    probation and ordered to pay a fine, restitution, and special


                                9
Semiannual Report to the Congress




                                        assessment of $66,065, and another doctor was sentenced to
                                        1 year probation and ordered to pay a fine, restitution, and special
                                        assessment of $73,000. Both doctors were sentenced for fraudu-
                                        lently billing federal health programs including Medicare and
                                        TRICARE for the prostate cancer drug.

Environmental                       •   A Defense contractor pled guilty to making a false statement
Crimes                                  involving hazardous waste manifests. The contractor was
                                        sentenced to pay a fine, restitution, and special assessment
                                        totaling $265,400, and was placed on probation for a period of 3
                                        years. The investigation disclosed that the contractor improperly
                                        disposed of more than 200,000 gallons of hazardous waste
                                        products obtained from Fort Irwin, California. Further, the
                                        Defense Logistics Agency suspended the corporation and its
                                        officers from future government contracting, for their involve-
                                        ment in the scheme.

                                    •   A Defense contractor and its president were sentenced for
                                        violating the Resource Conservation and Recovery Act. The
                                        contractor was ordered to serve 1 year of supervised probation
                                        and pay a fine and special assessment of $100,400. The president
                                        was sentenced to 12 months and 1 day incarceration and 2 years
                                        of supervised release. The contractor, a manufacturer of high
                                        explosives and pyrotechnics for the DoD, violated the Resource
                                        Conservation and Recovery Act by transporting, storing, and
                                        disposing of substances known to contain hazardous waste
                                        without having proper permits.

DIRECTORATE FOR              The Directorate for Reprisal Investigations conducts investigations and
REPRISAL                     performs oversight reviews of investigations conducted by the Military
INVESTIGATIONS               Departments pertaining to:

                                    •   Allegations that unfavorable actions were taken against members
                                        of the Armed Forces, DoD nonappropriated fund employees and
                                        Defense contractor employees in reprisal for making protected
                                        communications.

                                    •   Allegations that members of the Armed Forces were referred for
                                        mental health evaluations without being afforded the procedural
                                        rights prescribed in the DoD Directive 6490.1 and DoD
                                        Instruction 6490.4.




                                                   10
                                                           Semiannual Report to the Congress




Whistleblower       During the reporting period, the OIG DoD and the Military Department
Reprisal Activity   Inspectors General received 290 new complaints of whistleblower
                    reprisal. Of the 146 cases closed during this period, 106 cases were
                    closed after preliminary analysis determined further investigation was
                    not warranted. A full investigation was conducted for 40 cases, in which
                    20 cases (50 percent) contained one or more substantiated allegations of
                    whistleblower reprisal. These investigative results were referred to
                    commanders and supervisors for corrective action.

Examples of              •   An Air Force squadron commander reprised against a subordinate
Substantiated                officer who had complained of unfair treatment to the Equal
Whistleblower                Opportunity officer, IG, and her chain of command. The unfavor-
Reprisal Cases               able actions that the squadron commander took against the officer
                             included referring her for a mental health evaluation; issuing her
                             an unfavorable officer performance report and letter of repri-
                             mand; withholding a recommendation for pilot training; and
                             denying an end of tour award. As a result of the substantiated
                             findings, the squadron commander received a letter of admonish-
                             ment that was placed in his official personnel record and his
                             senior service school assignment was canceled.

                         •   A Naval Reserve first class petty officer was removed from his
                             supervisory position in reprisal for his protected communication
                             to the Chief of Naval Personnel regarding safety issues and mis-
                             management and underutilization of Reserve personnel.
                             Corrective action is pending.

                         •   An Air Force commander forwarded derogatory information to a
                             technical sergeant’s new command in reprisal for the technical
                             sergeant’s prior IG complaints. As a result of the substantiated
                             finding, the commander received a letter of counseling and was
                             directed to review the Military Whistleblower Protection Act and
                             its implementing DoD Directive and Air Force Instruction.

                         •   An Army Reserve officer received a letter of reprimand and an
                             unfavorable officer evaluation report in reprisal for reporting
                             allegations of sexual harassment to the Equal Opportunity office.
                             Corrective action is pending.

                         •   An Army Nurse Corps officer was threatened with an unfavorable
                             officer evaluation report and a position demotion because his
                             supervisor believed he made a complaint to the installation
                             Commanding General about the supervisor’s unprofessional


                                        11
Semiannual Report to the Congress




                                         comments at a “hail and farewell” luncheon. The supervisor retired
                                         from the Air Force before corrective action was initiated against
                                         her.

     Referrals for Mental       Thirty-nine OIG and Military Department cases closed during the
     Health Evaluations         reporting period contained allegations of violations of DoD Directive
                                6490.1, “Mental Health Evaluations of Members of the Armed Forces.”
                                Investigations substantiated one allegation that a member was referred for
                                a mental health evaluation in reprisal; and eight allegations that
                                commanders failed to follow the procedural requirements of the Directive
                                for referring Service members for mental health evaluations. We continue
                                to coordinate with Military Department IGs to train commanders and
                                mental health care providers regarding the procedural requirements of the
                                Directive.

    SENIOR OFFICIAL             The Directorate for Investigations of Senior Officials conducts
    INQUIRIES                   investigations into allegations against senior military and civilian
                                officials and performs oversight of senior official investigations
                                conducted by the Military Departments.

                                Figures 2 and 3 (page 13) show results of activity on senior official cases
                                during the period. On September 30, 2003, there were 275 ongoing
                                investigations into senior official misconduct throughout the Department,
                                which represented an increase from April 1, 2003, when we reported 245
                                open investigations. Over the past 6 months, the Department closed 221
                                senior official cases, of which 32 (14 percent) contained substantiated
                                allegations.

    INSPECTIONS AND             The Office of the Deputy Inspector General for Inspections and Policy
    POLICY                      (ODIG-IP) has continued to develop during this reporting period, within
                                existing resources, as part of the transformation of the OIG DoD to form
                                the third arm of the team of investigators, inspectors, and auditors
                                “inspiring by paradigm a culture of accountability and intelligent risk-
                                taking throughout the Department of Defense.” The ODIG-IP includes
                                the DoD Hotline, the offices of Investigative Policy and Oversight (IPO)
                                and Audit Policy and Oversight (APO), and the recently established
                                Inspections and Evaluations Directorate. The ODIG-IP has already
                                undertaken several highly sensitive inspections, including the Air Force
                                Academy sexual assault issues, the DoD program to prevent human traf-
                                ficking, and a peer review requested by the Navy of its Office of
                                Inspector General.




                                                 12
                                                                                           Semiannual Report to the Congress




                          DoD Total Senior Official Cases
                                 FY 99 - FY 03

     600                                                   578

                                                                          503
                                                     488
     500                         455                                            460        466
                                                                                                 427
              401                      402
     400            369



     300

     200
                                                                 89
     100                  66                 69                                       70
                                                                                                       57


        0
                FY99               FY00                FY01                 FY02             FY03

                                 Opened            Closed             Substantiated



            This chart shows the total number of senior official investigations
                    conducted in the DoD over the past 5 fiscal years.


                                                  Figure 2




Nature of Substantiated Allegations Against Senior Officials
                  During 2nd Half FY 03

      Misuse Gov't
       Property/                                                         Other
       Resources                                                       Misconduct
         35%                                                              7%




                                                                                                  Abuse of
                                                                                                 Authority/
                                                                                                 Favoritism
Improper Personnel                                                                                 35%
      Action                   Sexual Harassment/
       16%                         Improper
                                  Relationship
                                       7%




                                                   Figure 3




                                                       13
Semiannual Report to the Congress




 Hotline                       The OIG Hotline continues to be a valuable intake activity for DoD
                               employees and the public to report suspected instances of fraud, waste,
                               mismanagement, and suspected threats to homeland security. During
                               this reporting period, the OIG Hotline received 6,939 contacts from the
                               public and members of the DoD community, initiated 1,419 investi-
                               gations, and closed 1,262 cases. Investigations initiated by the OIG
                               Hotline returned $4.37 million to the government. Additionally, the OIG
                               Hotline received 18 Congressional cases during this reporting period.
                               The OIG Hotline continues to receive contacts on suspected threats to
                               homeland security–a fairly new mission for the Defense Hotline.

 Investigative Policy          The Office of Investigative Policy and Oversight (IPO) assists the OIG
 and Oversight                 DoD in fulfilling its statutory responsibilities to prevent fraud, waste,
                               and abuse by developing investigative policy for and monitoring and
                               evaluating the performance of over 3,600 special agents and 48,000 law
                               enforcement personnel in the Department. The IPO reviews individual
                               investigations; issues Department-wide policies affecting the investi-
                               gative and law enforcement community; coordinates on legislative
                               interests and other special projects with particular importance to those
                               communities; and oversees the OIG DoD subpoena and Voluntary
                               Disclosure programs. The IPO also provides oversight of the operations,
                               policies, and products of the four DCIOs, which investigate crimes
                               affecting the DoD. Information on some of the IPO’s actions and
                               products follow.

                               Following reports concerning the Air Force’s response to allegations of
                               sexual assaults at the Air Force Academy, IPO initiated an oversight
                               evaluation focusing on several key areas. In May 2003, IPO admini-
                               stered a survey, concentrating on sexual assaults on female cadets at the
                               Air Force Academy. Figure 4 summarizes the preliminary results of that
                               survey. The IPO’s oversight activities and analysis continue.

              Breakdown of Sexual Assaults at the Air Force Academy by Class Year of Graduation
                Total Usable      Total Sexual        Percent of      Rape or Attempted      Percent of
 Class Year      Responses       Assault Victims     Respondents        Rape Victims        Respondents
     2003          128               31                   24.2%            15                     11.7%
     2004          117               32                   27.4%            10                     8.5%
     2005          154               27                   17.5%            11                     7.1%
     2006          180               19                   10.6%            7                      3.9%
     Total         579               109                  18.8%            43                     7.4%

                                                   Figure 4




                                                     14
                                                      Semiannual Report to the Congress




             Misuse of Government Purchase Cards (GPC) continues to receive
             attention from Congressional and DoD leadership. On January 1, 2003,
             the OIG DoD began collecting statistical information regarding DCIOs’
             investigations of the misuse/fraudulent use of the GPCs. From January 1
             to September 30, 2003, the DCIOs initiated 42 investigations, which
             identified fraud schemes ranging from small personal purchases to large-
             scale operations. One case totaled $2.6 million and involved 6 DoD
             civilian employees, 24 non-DoD employees, and 25 companies. Investi-
             gations continue on 34 of the 42 investigations. Seven are at various
             stages of legal action. Action to date on four of the cases has resulted in
             non-judicial punishment with a monetary forfeiture, resignation from
             service, and pending separation from the military.

             During this period, the IPO streamlined the process whereby DoD crimi-
             nal investigators request Inspector General subpoenas. The narrative
             request format was replaced by question and answer format that addresses
             all matters necessary to help ensure subpoenas are legally sufficient. The
             change has resulted in an estimated 90 percent reduction in follow-up
             questions to requesting agents and a corresponding 1.8-day average
             decrease in subpoena processing time.

             On July 29, 2003, the Inspector General revised DoD Instruction 5100.86,
             “DoD Forensic Science Committee.” The revised Instruction assigns
             committee responsibilities for the review and resolution of forensic
             science issues of concern to the DoD forensic science community and its
             customers.

Voluntary    The Voluntary Disclosure Program encourages contractors to disclose
Disclosure   potential criminal or civil fraud that may affect their contractual
Program      relationship with the DoD or the contractor’s responsibility under the
             Federal Acquisition Regulation. During this reporting period, the govern-
             ment recovered $634,604 in settlement of disclosures and received four
             requests for admission to the Program. The Program has recovered more
             than $423 million since its inception in 1986.

             Examples of cases received include a company that reported it failed to
             comply with certain test procedures during construction of destructor
             bombs intended to detonate underwater mines. Another company reported
             that it failed to perform certain dimensional tests on equipment installed
             on fighter aircraft sold to the Navy. Both of these disclosures were
             accepted into the Voluntary Disclosure Program and resulted in civil
             recoveries totaling $625,000.




                                   15
Semiannual Report to the Congress




 Audit Policy and            In accordance with the Inspector General Act of 1978, as amended, the
 Oversight                   Office of Audit Policy and Oversight (APO), provides policy direction
                             for and monitors and evaluates adherence to policies, practices, and
                             principles of over 6,500 DoD auditors, ensures appropriate use of non-
                             federal auditors and their compliance with auditing standards, and
                             ensures that contracting officials comply with statutory and regulatory
                             requirements when processing contract audit reports. During the
                             reporting period, APO completed or participated in the following
                             activities.

                             With the Office of the Deputy Inspector General for Auditing, the APO
                             conducted an assessment of DoD processes and congressional inter-
                             action related to leasing actions (D-2003-129) requested by the Under
                             Secretary of Defense for Acquisition, Technology, and Logistics.

                             The APO reviewed a Hotline allegation concerning DCAA management
                             actions taken in response to inappropriate actions taken by certain
                             DCAA auditors regarding a quality control review.

                             In accordance with its responsibilities under OMB Circular A-133,
                             §400(a)(5), the APO referred an employee to the Professional Ethics
                             Division, American Institute of Certified Public Accountants, because
                             the audit for the Center for Naval Analyses did not meet OMB Circular
                             A-133 audit requirements and Government Auditing Standards.

 Inspections and             On September 8, 2003, the Inspector General established an Inspections
 Evaluations                 and Evaluations Directorate within the ODIG-IP. This completed
                             another phase in the OIG DoD transformation plan. The Directorate will
                             identify opportunities to improve performance and efficiency in DoD
                             programs and operations, and promote positive change through a focus
                             on outcomes. In addition to monitoring compliance with law and DoD
                             policy, evaluators will assess whether DoD programs can perform their
                             duties effectively and are making changes today to be relevant in
                             5 years. To do this, evaluators will be experts both in evaluation method-
                             ologies and a subject area, such as occupational health or joint
                             operations.

                             At the end of fiscal year 2003, the Directorate had 14 people in three
                             divisions. By the end of fiscal year 2005, the Directorate is scheduled to
                             have 50 military and civilian personnel divided among six divisions:

                                    •   Joint Operations, Military Departments, and Service Inspectors
                                        General


                                                  16
                                                       Semiannual Report to the Congress




                   •   Homeland Defense

                   •   Safety and Operational Health

                   •   Engineering and Environment

                   •   Utilization and Integration of Reserve Forces

                   •   Special Projects and Technical Assistance

              The groups are designed to provide broad subject area expertise to
              address the President’s Management Agenda, DoD identified top
              priorities, and OIG performance and management challenges for the
              Department of Defense.

AUDITING      On September 9, 2003, the Honorable Kenneth M. Donohue, Inspector
              General of the Department of Housing and Urban Development,
              provided his office’s “unqualified opinion” on the OIG audit office
              system of quality control. This “unqualified opinion” marks a major
              milestone in ongoing efforts to transform the OIG. Further, the opinion
              provides assurance of material compliance with professional audit
              standards in the conduct of OIG audits.

              The central audit offices of the DoD are the OIG DoD, the Army Audit
              Agency, the Naval Audit Service, and the Air Force Audit Agency. The
              organizations all together issued 301 reports, identifying the opportunity
              for $8.8 billion in monetary benefits. Appendix A lists internal audit
              reports by management challenge area. Appendices B and C, respec-
              tively, list OIG DoD reports with potential monetary benefits and
              statistically summarize audit followup activity.

              The DCAA provided financial advice to contracting officers in 1,550
              reports issued during the period. Contract auditing resulted in approxi-
              mately $5.4 million in questioned costs and funds that could be put to
              better use. Further details are at Appendix D. Contracting officers dis-
              allowed $390,464 as a result of significant DCAA post-award contract
              audit reports closed during the period. Additional details on the status of
              actions taken on significant post-award contract audits are in
              Appendix E.

Acquisition   The Department is the largest purchaser in the world. In fiscal year 2002,
Audits        the Department spent $200 billion on acquisition. On an average
              working day, the Department issues more than 20,000 contract actions


                                  17
Semiannual Report to the Congress




                             valued at $692 million and makes more than 5,000 purchase card trans-
                             actions valued at $26 million. The Department’s challenge is to obtain
                             the best value of quality and cost for a myriad of goods and services.
                             During the reporting period, the DoD audit community issued 79 reports
                             on acquisition issues. Any acquisition dollar that is not effectively
                             managed is a dollar that is not available to fund the top 10 priorities of
                             the Secretary of Defense, such as the global war on terrorism and joint
                             warfighting capabilities.

                             The DoD auditing and investigative communities continue to be heavily
                             engaged in helping the Department reduce its vulnerability to credit card
                             misuse. The Services and the Defense agencies performed an in-depth
                             review of purchase card transactions for 1,357 purchase card holders and
                             determined that 182 card holders potentially used their purchase cards
                             inappropriately or fraudulently. As a result, the 182 card holders
                             expended about $5 million in scarce resources on potentially inappro-
                             priate and fraudulent transactions. The DoD Purchase Card Program
                             Office, along with the Navy, initiated actions that will strengthen
                             internal controls by increasing the tools available to DoD managers.
                             Those actions include data mining techniques designed to detect poten-
                             tially inappropriate and fraudulent transactions. With the use of data
                             mining and other management actions, the integrity of the Purchase Card
                             Program is improved along with confidence in DoD to spend money
                             prudently.

                             An OIG DoD assessment showed that the Air Force plan to lease Boeing
                             767 tanker aircraft could have been improved. Although not required by
                             statute, applying a best business practice of weighing the need to
                             conduct a formal analysis of alternatives to achieve the best possible
                             system could have improved the Air Force leasing process.

                             Another OIG DoD report found that DoD did not adequately administer
                             contracts with approximately $5.5 billion of performance-based pay-
                             ments. Specifically, 43 of 67 contracts reviewed had problems with
                             performance-based payments. As a result of inadequate administration
                             of these payments, $4.1 billion (including a possible $900 million in
                             accelerated payments) of the $5.5 billion lacked adequate documentation
                             to ensure that the payments were for demonstrated performance.

                             The Army Audit Agency reported that the Program Manager of the
                             Future Combat System’s simulation support office aggressively
                             managed requirements determination for models and simulations.
                             Responding to a Program Management Office directive, the simulation


                                                 18
                                                       Semiannual Report to the Congress




                support office reduced a $699 million funding requirement to $282
                million by eliminating $344 million in requirements that would benefit
                multiple systems--not just the Future Combat Systems--and eliminating
                $73 million through budget cuts and the reallocation of funds within
                specific requirements. And, based on its recommendations, the office
                reallocated another $47 million from requirements the office no longer
                intended to fund.

                The Department has about 1,500 weapon systems acquisition programs
                valued at $1.8 trillion over the collective life of the programs. The OIG
                DoD audits of the Chemical Demilitarization Program and Suite of Inte-
                grated Radio Frequency Countermeasures showed the need to update the
                acquisition program baseline, life cycle cost estimates, and test and
                evaluation plans to effectively manage the program and facilitate invest-
                ment decisions. A Naval Audit Service review of the Digital Modular
                Radio showed significant engineering issues emerge during its develop-
                ment that proved the ineffectiveness of the Commercial Off-The-Shelf/
                Non-Developmental Initiative acquisition approach. The Naval Audit
                Service recommended that the Digital Modular Radio program be
                restructured to eliminate most of the Fleet Modernization Program
                legacy equipment replacement requirements and put approximately
                $282 million of program funding to better use. For the Joint Air-to-
                Surface Standoff Missile, the Air Force Audit Agency determined that
                improvements were needed in test asset management, warranty adminis-
                tration, product quality assurance, and earned value management.

Human Capital   The challenge in the area of human capital is to ensure that the DoD
Audits          civilian and military workforces are appropriately sized, well trained and
                motivated, held to high standards of integrity, encouraged to engage in
                intelligent risk taking, and thus capable of handling the emerging tech-
                nologies and threats of the 21st century. The Department has 2.6 million
                active duty and Reserve men and women under arms and a civilian
                workforce of nearly 654,000. The size of DoD and the wide variety of
                skills needed to meet this challenge are complicating factors, as are the
                constraints posed by personnel management rules.

                Identifying and maintaining a balanced basic level of skills are needed to
                maintain in-house capabilities and meet the challenges of the 21st
                century. The aging workforce in the Department is highlighted by the
                fact that 66 percent of the workforce will be eligible to retire by 2006.
                The continuing increase in the number of retirement-age employees
                makes it difficult for DoD to maintain an institutional memory and to




                                    19
Semiannual Report to the Congress




                             develop the skilled civilian workers, managers, and leaders it will need
                             to meet future requirements.

                             The DoD has undertaken a number of initiatives to transform its forces
                             including adopting a capabilities-based approach to planning based on
                             clear goals and to improve the linkage between strategy and investments.
                             The Department recognized the need for a strategic plan for the civilian
                             workforce by publishing the first civilian human resources strategic
                             plan. The strategic plan imparts the Department’s direction, with its
                             vision, values, principles, critical success goals, and objectives.

                             The Department is developing and implementing a common DoD-wide
                             military personnel system. The DoD audit community issued 13 reports
                             on Human Capital issues. The OIG DoD reported that DoD achieved
                             standardization of basic civilian personnel processing and reduced its
                             personnel staffing levels by implementing regionalization and
                             modernizing its systems. However, the Military Departments, the
                             National Guard Bureau, and Defense organizations did not fully use the
                             capabilities of the system and most added or planned to add nonstandard
                             applications to the system to support their business practices. System
                             users also had to perform numerous workarounds and received frequent
                             software patches to make the system work. The Naval Audit Service
                             reported that the Navy was using production recruiters in support
                             positions (clerical and administrative jobs) as opposed to recruiting.
                             When the Navy increased the number of recruiters (5,000 in fiscal year
                             2002), it did not increase the number of support billets. Recruiting
                             districts were then forced to fill these positions from “out of hide”
                             resources. The auditors calculated that recruiters spent a total of
                             901 enlisted recruiter workyears and $58.4 million doing non-recruiter
                             related work and identified a total of $13.9 million to $19.8 million that
                             could be put to better use over the remaining Five Year Defense Plan.

                             An Army Audit Agency report found the combination of administrative
                             requirements, high operational tempo, and force protection negatively
                             affected the ability of the unit to train and execute its primary mission.
                             Units weren’t able to train the way they would fight because key
                             personnel were withdrawn from the unit or tasked within the unit for
                             force protection duties, borrowed military manpower and details, and
                             court-martial and chapter processes. Burdens also were placed on units
                             to maintain primary administrative systems. In addition, units had to
                             perform secondary administrative requirements so they weren’t as
                             proficient in meeting their primary mission requirements.




                                                 20
                                                     Semiannual Report to the Congress




             The Air Force Audit Agency reported 50 percent of the 168,000 men and
             women enlisting in the Air Force from fiscal years 1998 through 2002
             took advantage of the Initial Enlistment Bonus Program and received
             between $1,000 and $17,000 upon completion of basic military and
             technical training. During the audit, Air Force officials modified the pay
             system to ensure that bonus payments are made on time.

Financial    The Department faces financial management problems that are complex,
Management   longstanding, pervasive, and deeply rooted in virtually all business
Audits       operations throughout the Department. These problems have impeded
             the Department’s ability to provide reliable, timely, and useful financial
             and managerial data to support operating, budgeting and policy
             decisions. The problems have also prevented the Department from
             receiving a clean opinion on its financial statements. During the
             reporting period the DoD audit community issued 84 reports on
             Financial Management.

             The Office of Management and Budget anticipates that the Department
             will be the only agency covered under the Chief Financial Officer Act
             that will not receive a clean opinion in fiscal year 2003. To help resolve
             these problems, the Department established the Financial Management
             Modernization Program. Part of the program (renamed the business
             Management Modernization Program) includes the business enterprise
             architecture that will be used to construct and guide the Department’s
             future business environment. The Department has delivered the initial
             version of the business enterprise architecture and transition plan;
             however, much work remains.

             The Department’s high-risk areas and material control weaknesses will
             prevent the Federal Government from achieving a clean opinion on their
             consolidated financial statements in fiscal year 2003. Of these high-risk
             areas and material control weaknesses, the most significant problem is
             the financial management systems. The Department currently relies on
             approximately 2,300 systems, including accounting, acquisition,
             logistics, and personnel systems, to perform its business operations.
             Many of these financial management systems do not comply
             substantially with Federal system requirements. In addition, there is little
             standardization across the Department, multiple systems performing the
             same task, identical data stored in multiple systems, manual data entry
             into multiple systems, and many workarounds and off-line records to
             translate data from one system to another.




                                  21
Semiannual Report to the Congress




                             The Army Audit Agency performed two reviews to ensure that
                             automated feeder and financial systems meet requirements to provide
                             accurate, timely, and valued information for managers and for
                             preparation of financial statements. During these reviews the Army
                             Audit Agency worked with the system developers during development
                             to make sure the system has the necessary requirements built into the
                             system and is working before deployment. These system reviews
                             allowed the Army to take significant steps forward in financial manage-
                             ment by deploying systems that will meet financial and functional
                             requirements.

                             The OIG is working closely with the Department to address the
                             administration’s requirement for accelerated submission of audited
                             financial statements. The OIG, at the request of the Office of the Under
                             Secretary of Defense (Comptroller)/Chief Financial Officer, completed a
                             study of the “size and scope” requirements to audit the Department’s
                             financial statements and establish a long-term audit strategy for auditing
                             the Department’s annual financial statements. If the recommendations
                             from this study are implemented, the Office of the Under Secretary of
                             Defense (Comptroller)/Chief Financial Officer anticipate a clean
                             opinion for the fiscal year 2007 financial statements. We support the
                             high priority being given to providing accurate, timely, and reliable
                             financial statements by the Office of the Under Secretary of Defense
                             (Comptroller)/Chief Financial Officer and the Defense Finance and
                             Accounting Service (DFAS). Until the Department installs its new
                             financial management architecture and integrated systems, it must rely
                             on workarounds and manual compilations of financial data that are
                             prone to errors. One OIG DoD audit reported that DoD did not have
                             fundamental controls over the use of closed appropriations. During fiscal
                             year 2001 and the first half of fiscal year 2002, the DFAS reported
                             $3.1 billion (absolute value) of adjustments to closed appropriations to
                             the U.S. Treasury.

                             The OIG issued a report critical of how the DFAS was managing the
                             investments for the Medicare Eligible Retiree Health Care fund. The
                             lack of oversight and an investment strategy resulted in investments in
                             short-term Treasury securities instead of long-term Treasury securities
                             paying higher interest rates. The report estimated that $6.9 billion in
                             additional investment income could result from investing in long-term
                             securities. In response to the report, the Under Secretary of Defense
                             (Comptroller)/Chief Financial Officer initiated action to establish a DoD
                             Investment Board with a charter, advisors from the private sector, and
                             performance metrics.


                                                 22
                                                           Semiannual Report to the Congress




                    The Air Force Audit Agency reported that Air Force government-
                    furnished property managers did not adequately support, validate, and
                    reconcile Miscellaneous Obligation Reimbursement Documents that
                    resulted in $54.5 million in unsupported reimbursement documents,
                    unneeded obligations, and incorrect payments. By deobligating
                    unneeded funds, managers could make available $17.6 million for other
                    uses.

                    The Naval Audit Service reported that the Naval Sea Systems Command
                    had not established a recovery-auditing program consistent with Public
                    Law 107-107. Consequently, the command had no means to identify and
                    recover potential duplicate and erroneous contractor payments.

Information         Information security is a cornerstone of Homeland Security. The infor-
Security            mation security threat to DoD systems and to other public and private
Audits              sector systems, on which national security depends, is greater than ever.
                    The DoD audit community issued 20 reports related to Information
                    Security. Many of the reports are classified or For Official Use Only.

Joint Warfighting   For U.S. forces to operate jointly in conflict, they must also train and
and Readiness       operate together in peacetime. Ensuring that U.S. forces are ready to
Audits              carry out assigned missions is the preeminent responsibility and
                    challenge of the DoD. A wide variety of Defense functions, particularly
                    in personnel management, logistics, and acquisition areas, directly
                    support and impact joint warfighting and military readiness. The DoD
                    audit community issued eight reports related to joint warfighting and
                    readiness.

                    The Naval Audit Service issued two reports on the Marine Corps using
                    combat essential personnel to perform duties other than its billeted
                    military occupational specialty and combat-related training.

Information         The key to success on the modern battlefield and in internal business
Technology          activities is the ability to produce, collect, process, and distribute
Management          information. Data must be accurate, timely, secure, and in usable form.
Audits              The huge scale, unavoidable complexity, and dynamic nature of DoD
                    activities make them heavily dependent on automated information tech-
                    nology. This dependence has proven to be a major challenge because
                    DoD management techniques have not kept pace with the continual
                    growth in information user requirements and the shortened life spans of
                    technologies before obsolescence. The President’s Management Agenda
                    initiative on Expanded Electronic Government will assist the Depart-
                    ment in meeting this management challenge.


                                        23
Semiannual Report to the Congress




                             The DoD audit community issued 15 reports related to information
                             technology management. One OIG report on the Global Command and
                             Control System - Joint Operation Planning and Execution System
                             (JOPES) found the fielding of the most current version, JOPES 21, had
                             fallen 46 months behind schedule because of insufficient project over-
                             sight. The Defense Information Systems Agency, the Program Manager
                             for JOPES 21, agreed to provide greater attention to integrated logistics
                             support planning and increase use of baseline management and
                             performance-based service contracting.

                             There are also problems with information available on the Internet. A
                             Naval Audit Service report determined that in one of four cases
                             reviewed, classified weapon system information deemed “Secret and
                             above” was present on websites in the public domain. An Air Force
                             Audit Agency report determined that Air Force managers had not formu-
                             lated and published a plan for migration of land mobile and other radio
                             based devices.

                             In addition, auditors began reporting on progress in developing the DoD
                             business enterprise architecture necessary to respond to Office of
                             Management and Budget and congressional requirements, as well as to
                             support its transforming initiatives. Auditors found that DoD has neither
                             a single DoD-wide definition of a business management information
                             technology system nor a systems inventory to support the business enter-
                             prise architecture initiative. This condition also makes the budgeting
                             process for DoD information technology investment opaque to senior
                             managers and impedes DoD responsiveness to Office of Management
                             and Budget data calls and interdepartmental initiatives.

 Logistics                   The DoD spent more than $80 billion a year on logistics support opera-
 Audits                      tions for supplies, transportation, and maintenance costs. This includes
                             $40 billion, and nearly 700,000 military and civilian personnel and
                             several thousand private sector firms, involved in the maintenance of
                             more than 300 ships, 15,000 aircraft and helicopters, 1,000 strategic
                             missiles, 350,000 ground combat and tactical vehicles, and hundreds of
                             thousands of additional support assets. In addition, DoD maintains an
                             inventory of items such as clothing, engines, and repair parts valued at
                             an estimated $63 billion to support the warfighter. The purpose of
                             logistics is to reliably provide the warfighter with the right material at
                             the right time to support the continuous combat effectiveness of the
                             deployed force. The Department has strategic plans and numerous pilot
                             programs to help improve logistics.




                                                 24
                                                          Semiannual Report to the Congress




                   Control and accountability of material stored, used, and repaired at DoD
                   depot maintenance facilities continues to be problematic. In fiscal year
                   2002, the DoD spent an estimated $15.3 billion for depot maintenance.
                   The proper management of this important function requires that
                   adequate controls and procedures be in place and followed to ensure that
                   assets remain viable to the materiel managers and that proper quantities
                   be maintained. The DoD audit community issued 48 reports on logistics
                   issues during the reporting period. The OIG DoD issued one report that
                   identified $20.4 million of parts that were either unaccounted for or
                   excess to known requirements at one depot maintenance facility.
                   Further, the error rate in the depot’s inventory record was 11 percent.
                   The OIG DoD also reported in a followup audit that the Army and the
                   Navy had taken actions to improve procedures and controls to account
                   for depot level repairable inventories; however, management needed to
                   address several issues to further improve the inventory accountability.

                   The Army Audit Agency reported that, on a limited basis, the manage-
                   ment and implementation of the Army Total Asset Visibility capability
                   achieved its intended goals of providing operational and logistics
                   managers with a means to obtain and act on information about the loca-
                   tion, quantity, condition, and movement of Army assets. However, the
                   full usefulness of this data was diminished because of a myriad of
                   problems associated with the reliability and completeness of the data.
                   For two of the four major automated systems that fed data to the capa-
                   bility, material variances existed between the asset balances recorded in
                   the source systems and data reflected in the capability. In addition,
                   source system owners needed to improve the reliability of data recorded
                   in their systems and reported to the capability.

                   An Air Force Audit Agency report showed that the depot maintenance
                   personnel could repair aircraft transparencies (canopies) using robotic
                   polishing technology that base-level personnel traditionally condemned
                   for disposal. The Naval Audit Service reported that the Marine Corps
                   continues to store and maintain prepositioned inventory in Norway even
                   though the strategic threat that rationalized the program ended with the
                   demise of the Soviet Union. The Marine Corps plans to spend about $45
                   million for operations and maintenance and about $110 million to
                   modernize through replacement of some of the prepositioned inventory
                   during fiscal years 2003 through 2008.

SIGNIFICANT OPEN   Managers accepted or proposed acceptable alternatives for 324
RECOMMENDATIONS    (99 percent) of the 326 OIG DoD audit recommendations made in the
                   last 6 months of fiscal year 2003. Many recommendations require


                                       25
Semiannual Report to the Congress




                                     complex and time consuming actions, but managers are expected to
                                     make reasonable efforts to comply with agreed-upon implementation
                                     schedules. Although most of the 1,005 open actions being tracked in the
                                     OIG DoD follow up systems are on track for timely implementation,
                                     there were 224 reports more than 12 months old, dating back as far as
                                     1990, for which management has not completed actions to implement
                                     the recommended improvements.1/

                                     We are concerned that DoD was not benefiting from the recommended
                                     improvements and was not meeting the intent of the Inspector General
                                     Act to complete corrective actions promptly. To accelerate implemen-
                                     tation of the corrective actions, the Inspector General wrote to each
                                     component head responsible for the delinquent recommendation and
                                     requested their assistance in completing the needed actions. This
                                     resulted in increased senior DoD leadership involvement in imple-
                                     menting the overdue corrective actions.

                                     Significant open recommendations that have yet to be implemented
                                     include the following:

                                             •   Recommendations made in 1997 and 2000 to improve policy
                                                 guidance on handling potentially dangerous munitions residue on
                                                 training and test ranges. The applicable DoD instruction and
                                                 implementing guidance are still being staffed.

                                             •   Recommendations made in 1998 to improve management of the
                                                 electromagnetic frequency spectrum are partially accomplished,
                                                 but final guidance has still not been issued.

                                             •   Recommendations made in 2000 to improve controls over the
                                                 release of technical information ("deemed exports") to foreign
                                                 governments and individuals.

                                             •   Recommendations made in 2000 to implement a process for
                                                 prioritizing security clearance requests to improve the efficiency
                                                 of the DoD personnel security clearance investigative efforts.

1. Section 6009 of the Federal Acquisition Streamlining Act, as amended, provides: “If the head of the agency fails to complete
  final action with regard to a management decision within the 12-month period, the inspector general concerned shall identify
  the matter in each of the inspector general’s semiannual reports pursuant to section 5(a)(3) of the Inspector Geneal Act of 1978
  (5 U.S.C. App.) until final action on the management decision is completed.” A list of OIG DoD reports on which
  management decisions have been made but final action has not been taken is continued in the Secretary of Defense Report
  issued pursuant to section 5(a) of the Inspector General Act.




                                                               26
                                                      Semiannual Report to the Congress




                    •   Recommendations made in 2001 addressing the effectiveness of
                        the DoD Financial Management improvement plan. The recom-
                        mendations will be implemented through the DoD financial
                        management modernization program. The Department has
                        developed a DoD-wide Business Enterprise Architecture and a
                        transition plan to implement the architecture. However, imple-
                        mentation will be a long-term effort.

COMMENTS ON    Section 4(a) of the Inspector General Act requires the Inspector General
LEGISLATION/   “to review existing and proposed legislation and regulations relating to
TESTIMONY      the program and operations of [the Department of Defense]” and to
               make recommendations “concerning the impact of such legislation or
               regulations on the economy and efficiency in the administration of
               programs and operations administered or financed by [the Department]
               or the prevention and detection of fraud and abuse in such programs and
               operations.” The OIG routinely receives legislation for review that has
               been referred to the Department of Defense for comment.

               During the current reporting period, the Inspector General commented
               on the following legislative items:

                    •   National Defense Authorization Act for FY 2004, H.R. 1588,
                        Title XI, Subtitle B, Department of Defense National Security
                        Personnel System. The Inspector General supported this provi-
                        sion that provides increased flexibility to the DoD to manage
                        civilian personnel.

                    •   National Defense Authorization Act for FY 2004, H.R. 1588,
                        section 1442, Authorization of Additional Commercial Contract
                        Types. The Inspector General opposed this provision that would
                        permit the use of time and material contracts or labor-hour
                        contracts for the procurement of commercial services that are
                        commonly sold to the public through such contracts.

                    •   National Defense Authorization Act for FY 2004, H.R. 1588,
                        section 1443, Clarification of Commercial Services Definition.
                        The Inspector General opposed this provision that eliminates the
                        word “catalog” from the definition of commercial services. The
                        changes would allow a contractor to claim any service, including
                        basic research and development, as commercial if the contractor
                        claims it plans to sell the service to the public.




                                   27
Semiannual Report to the Congress




                                    •   National Defense Authorization Act for FY 2004, H.R. 1588,
                                        section 1444, Designation of Commercial Business Entities. The
                                        Inspector General opposed this provision that expands when a
                                        business can be designated a commercial business entity. Under
                                        the proposal, a business entity with at least 90 percent (in dollars)
                                        of the sales of the enterprise over the past three business years
                                        made to private sector entities could consider any item or services
                                        it offers or sells, including military unique items, to be a
                                        commercial item.

                                    •   National Defense Authorization Act for FY 2004, H.R. 1588,
                                        section 1454, Applicability of Certain Provision to Sole-Source
                                        Contracts for Goods and Services Treated as Commercial Items.
                                        The Inspector General opposed this provision. Section 1454 and
                                        section 1444 (discussed above) would allow contractors selling
                                        military unique items to be exempt from protections provided by
                                        the Cost Accounting Standards (CAS) and the Truth in
                                        Negotiations Act (TINA) and make DoD subject to higher prices
                                        for military unique items and services. The effect of the combined
                                        changes made by sections 1444 and 1454 is to raise the threshold
                                        for the application of the TINA from $550,000 to $15,000,000.

                                    •   National Defense Authorization Act for FY 2004, H.R. 1588,
                                        Section 903, Standards of Conduct. The Inspector General
                                        concurred with proposed comments by the Office of Government
                                        Ethics (OGE) objecting to Section 903 which would require the
                                        Secretary of Defense to promulgate standards of conduct for
                                        members of the Defense Policy Board and the Defense Science
                                        Board. The OGE noted that members of these boards are subject
                                        to standards of conduct applicable to all executive branch
                                        employees.

                                    •   H.R. 479, to authorize Army arsenals to undertake to fulfill orders
                                        or contracts for articles or services in advance of the receipt of
                                        payment under certain circumstances. The Inspector General
                                        supported this legislation which would help resolve a long-
                                        standing problem related to the Pilot Program on Sales of
                                        Manufactures Articles and Services of Army Industrial Facilities.

                             Additionally, the OIG DoD is given the opportunity to provide
                             information to Congress pertinent to legislation under its consideration
                             by participating in congressional hearings.




                                                   28
                                                     Semiannual Report to the Congress




               On June 25, 2003, Mr. Paul Granetto, Director, Defense Financial
               Auditing Service, testified before the Subcommittee on Government
               Efficiency and Financial Management, House Committee on Govern-
               ment Reform on Defense Financial Management. Mr. Granetto testified
               on the obstacles faced by the DoD in obtaining a clean audit opinion on
               its agency-wide financial statements. His testimony also described
               initiatives being taken by the Department to modernize its business
               management systems in order to enable the Department to comply with
               federal accounting and financial management reporting requirements.
               The OIG has also reorganized its financial auditing operations to focus
               additional resources on auditing the various Defense financial state-
               ments and assisting the Department in achieving favorable opinions.

               The Honorable Joseph E. Schmitz, Inspector General of the Department
               of Defense, submitted a statement for the record for a hearing held
               July 29, 2003, by the House Budget Committee on Fraud, Waste, and
               Abuse in Mandatory Programs. The Inspector General’s statement
               focused on fraud within the TRICARE and military retirement pay and
               survivor benefit programs. The OIG, through the DCIS, and in cooper-
               ation with other federal, state, and local law enforcement agencies,
               maintains a proactive program to investigate fraud in these programs.
               The Inspector General stated that, since fiscal year 2000, the DCIS has
               initiated 427 health care related investigations and 27 investigations
               involving fraudulent payments for military retirement and survivor
               benefits. Over this time period, the DCIS recovered over $45 million as
               a result of health care fraud investigations and $587,000 as a result of
               investigations of military retirement and survivor benefits.

               The OIG also regularly reviews new and revised regulations proposed
               by the DoD. During this reporting period the OIG reviewed 96 draft
               issuances or re-issuances of DoD directives, instructions, manuals, and
               other policy guidance.

INTELLIGENCE   The Intelligence Community Inspectors and Auditors General continue
               to evaluate programs and operation of importance to DoD and the
               congressional oversight committees. Ninety-four reports were
               completed by the Office of the Inspector General of the DoD, the IGs of
               Defense Intelligence Agency, National Imagery and Mapping Agency,
               National Reconnaissance Office, National Security Agency the Naval
               Audit Service, the Air Force Audit Agency, the Army Audit Agency,




                                   29
Semiannual Report to the Congress




                              and the Defense Contract Audit Agency. The reports are categorized into
                              the General Accounting Office High Risk Areas as shown in Figure 5.

                             IG and Audit Agency Evaluations
                                                              Military    Defense
           GAO High Risk Areas           OIG DoD            Departments   Agencies        Total
     Human Capital Management                2                  0            5             7
     Information Security                    2                  2            7             11
     Systems Modernization                   1                  1            1             3
     Financial Management                    4                  7            8             19
     Infrastructure Management               3                  11          14             28
     Inventory Management                    0                  0            1             1
     Weapon Systems Acquisition              0                  0            1             1
     Contract Management                     5                  0           11             16
     Other                                   0                  0            8             8
     TOTAL REPORTS ISSUED                   17                  21          56             94
                                                 Figure 5


                              See the Classified Annex to this report for a listing and summaries of the
                              94 reports.

                              The Intelligence Community Inspectors and Auditors General continued
                              to share information and improve the effectiveness and efficiency of
                              oversight of DoD intelligence activities. The Intelligence Communities
                              Inspectors General Forumserves as a mechanism for sharing information
                              among Inspectors General whose duties and responsibilities include
                              audit, inspection, or investigation or programs and operations of Intelli-
                              gence Community elements. The Information Assurance Working
                              Group, established by the intelligence Community Inspectors General
                              Forum in 1999, monitors and evaluates the status of management
                              policies and oversight efforts to protect the Intelligence Community
                              systems. See the Classified Annex to this report for information on
                              meetings of these groups.

                              Within DoD, the Joint Intelligence Oversight Coordination Group works
                              to improve the effectiveness and efficiency of DoD oversight intelli-
                              gence activities by identifying areas needing more emphasis, and
                              deconflicting various oversight programs. The group is comprised of
                              senior representatives of the Office of the Secretary of Defense and



                                                    30
                                      Semiannual Report to the Congress




Military Department audit, evaluation, and inspection organizations. At
the September 29, 2003 meeting, Mr. Steven Cantrell, Deputy Assistant
Secretary of Defense for Intelligence Oversight briefed the group on
Intelligence Operations matters. The group also discussed other matters
of importance to the intelligence oversight, audit, and inspection
community.




                   31
Appendix A                                                                   Semiannual Report to the Congress


                                  APPENDIX A*
              REPORTS ISSUED BY DOD INTERNAL AUDIT ORGANIZATIONS




  Excludes base level reports issued by the Air Force Audit Agency and memorandum reports and
  consulting reports issued by the Army Audit Agency. Includes evaluation reports issued by the OIG
  DoD.

  Copies of reports may be obtained from the appropriate issuing office by calling:

                  OIG DoD                                           Army Audit Agency
                  (703) 604-8937                                    (703) 681-9863

                  Naval Audit Service                               Air Force Audit Agency
                  (202) 433-5525                                    (703) 696-8027
                                                                    (703) 697-8014




            Summary of Number of Reports by Management Challenge Area
                         April 1, 2003 - September 30, 2003
                                               IG, DoD             Military Depts.                    Total
Financial Management                               15                       69                          84
Acquisition                                        23                       56                          79
Logistics                                           8                       40                          48
Readiness                                           1                        7                           8
Information Technology                              4                       11                          15
Management
Infrastructure and Environment                      4                       17                          21
Homeland Security                                   5                       15                          20
Human Capital                                       0                       13                          13
Health Care                                         1                        5                           6
Other                                               2                        5                           7
Total                                              63                       238                        301
 For information on intelligence-related reports, including those issued by other Defense agencies, refer to the
 classified annex to this report.

* Partially fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C.,
  Appendix 3, Section 5(a)(6) (See Appendix B).



                                                         32
Semiannual Report to the Congress                                                         Appendix A

                                    D-2003-095 Accounting for          A-2003-0213-FFG Review of
 FINANCIAL                          Reimbursable Work Orders at        the Army Management Control
 MANAGEMENT                         Defense Finance and                Process (Fiscal Year 2002), U.S.
                                    Accounting Service Charleston      Army Intelligence and Security
                                    (6/4/03)                           Command, Fort Belvoir,
 IG DoD                                                                Virginia (4/8/03)
                                    D-2003-118 Promptness of
 D-2003-073 Reliability of the
                                    FY 2003 Fourth Quarter DoD         A-2003-0214-FFG Review of
 FY 2002 National Imagery and
                                    Payments to the Department of      the Army Management Control
 Mapping Agency Financial
                                    the Treasury for District of       Process (Fiscal Year 2002), U.S
 Statements and Adequacy of
                                    Columbia Water and Sewer           Army Criminal Investigation
 Related Procedures and Controls
                                    Services (7/15/03)                 Command (4/9/03)
 (CLASSIFIED) (4/2/03)
                                    D-2003-119 Controls Over           A-2003-0240-FFF Audit of
 D-2003-074 Report on
                                    DoD Medicare Eligible Retiree      U.S. Army Reserve 99th
 Reliability of the FY 2002
                                    Health Care Fund Investments       Regional Support Command's
 Defense Intelligence Agency
                                    (7/31/03)                          Travel, Leave, Pay, and Contract
 Financial Statements and
                                                                       Transactions (4/17/03)
 Adequacy of Related Procedures     D-2003-122 Closing the Army's
 and Controls (CLASSIFIED)          1985 M1A1 Tank Contract            A-2003-0226-FFG Review of
 (4/7/03)                           (Contract Number DAAE07-           Army Management Control
                                    85-C-A043) (8/13/03)               Process (Fiscal Year 2002),
 D-2003-079 Promptness of FY
                                                                       Office of the Chief of Staff,
 2003 Third Quarter DoD             D-2003-123 Corps of Engineers      Army (4/18/03)
 Payments to the Department of      Equipment Reporting on
 the Treasury for District of       Financial Statements for FY        A-2003-0242-FFG Review of
 Columbia Water and Sewer           2002 (8/20/03)                     the Army Management Control
 Services (4/15/03)                                                    Process (Fiscal Year 2002), U.S.
                                    D-2003-124 Certification of a      Garrison, Fort Belvoir (4/18/03)
 D-2003-082 Joint Operation         DoD Payment for Telecom-
 Planning and Execution System      munications Services (8/22/03)     A-2003-0227-AMW Fiscal
 Funding (4/25/03)                                                     Year 2002 Followup of Audit
                                    D-2003-127 Allegation of           Recommendations--Army
 D-2003-084 Ordnance                Improper Accounting for Direct     Working Capital Fund (4/21/03)
 Accountability at Fleet Combat     Billable Hours by the Defense
 Training Center Atlantic           Finance and Accounting Service     A-2003-0243-FFG Validation
 (4/29/03)                          (8/28/03)                          of the Transportation Financial
                                                                       Management System-Military
 D-2003-091 Reliability of the      D-2003-133 Controls Over           Traffic Management Command
 FY 2002 National Security          DoD Closed Appropriations          (4/22/03)
 Agency Financial Statements        (9/15/03)
 and Related Procedures and                                            A-2003-0238-AMW Stock
 Controls (CLASSIFIED)              Army Audit Agency                  Funded Depot Level Reparable
 (5/14/03)                                                             Credit Policy, Office of the
                                    A-2003-0169-FFG
                                    Independent Auditor's Opinion-     Project Manager, Utility
 D-2003-094 Allegation
                                    Secretary of Defense/Joint Staff   Helicopters (4/25/03)
 Concerning Financial
 Management at the Civilian         Welfare and Recreation             A-2003-0168-FFG Financial
 Personnel Management Service       Association Fund--Financial        Controls-Secretary of Defense/
 (5/23/03)                          Statements (4/1/03)                Joint Staff Welfare and
                                    A-2003-0200-AMW Stock              Recreation Association Fund
                                    Funded Depot Level Reparable       (5/15/03)
                                    Credit Policy, Office of the
                                    Program Executive Officer,
                                    Tactical Missiles (4/3/03)



                                                 33
Appendix A                                                            Semiannual Report to the Congress


A-2003-0146-FFB Secretary of       A-2003-0309-FFG Review of             A-2003-0330-AMW Stock
Defense Executive Dining           Army Management Control               Funded Depot Level Reparable
Facility Fund-Internal Controls,   Process (Fiscal Year 2002), U.S.      Credit Policy, Office of the
Office of the Secretary of         Army Forces Command                   Product Manager, Apache
Defense (5/19/03)                  (6/11/03)                             Attack Helicopter (6/30/03)

A-2003-0260-FFG Review of          A-2003-0297-AMW Stock                 A-2003-0346-FFB Funding
the Army Management Control        Funded Depot Level Reparable          Policies for Multiple-
Process (Fiscal Year 2002), U.S.   Credit Policy, Office of the          Component Units (7/1/03)
Army Garrison, Fort George G.      Project Manager, Bradley
Meade (5/20/03)                    Fighting Vehicles System              A-2003-0338-FFG Validation
                                   (6/13/03)                             of Logistics Modernization
A-2003-0265-FFG Army                                                     Program (7/15/03)
Criminal and Civil Fraud           A-2003-0319-FFG Review of
Recovery Process (5/21/03)         the Army Management Control           A-2003-0351-AMW
                                   Process (Fiscal Year 2002), U.S.      Depreciation Charges, Rock
A-2003-0271-IME Controls           Army National Guard (6/13/03)         Island Arsenal (7/28/03)
Over Unit Morale, Welfare and
Recreation Funds, 396th            A-2003-0304-AMW Stock                 A-2003-0397-AMW Aged
Combat Support Hospital,           Funded Depot Level Reparable          Accounts, U.S. Army
Vancouver Barracks,                Credit Policy, Office of the          Communications-Electronics
Washington (5/23/03)               Project Manager, Cargo                Command--Army Working
                                   Helicopters (6/16/03)                 Capital Fund (8/15/03)
A-2003-0275-FFG Review of
the Army Management Control        A-2003-0299-IMU                       A-2003-0405-FFB
Process (Fiscal Year 2002), U.S.   Management of Channel Flight          Disbursements Without
Army Virginia National Guard       Requirements and Payment              Obligations, Assistant Secretary
(5/28/03)                          Processes, U.S. Army, Europe          of the Army (Financial
                                   and Seventh Army (6/17/03)            Management and Comptroller)
A-2003-0284-FFG Review of                                                (8/22/03)
the Army Management Control        A-2003-0310-AMW Stock
Process (Fiscal Year 2002),        Funded Depot Level Reparable          A-2003-0454-AMW Stock
Military District of Washington    Credit Policy, Office of the          Funded Depot Level Reparable
(6/6/03)                           Product Manager, Aviation             Credit Policy (9/22/03)
                                   Mission Equipment (6/18/03)
A-2003-0328-FFB Secretary of                                             A-2003-0450-AMW
the Army Executive Dining          A-2003-0313-AMW Aged                  Depreciation Charges, Anniston
Facility Fund, Office of the       Accounts--Army Working                Army Depot (9/23/03)
Administrative Assistant to the    Capital Fund, U.S. Army
Secretary of the Army (6/9/03)     Aviation and Missile Command          A-2003-0455-AMW
                                   (6/20/03)                             Reviewing Aged Accounts
A-2003-0288-AMW Stock                                                    Payable, In-Transits, and
Funded Depot Level Reparable       A-2003-0326-AMW Stock                 Unliquidated Obligations,
Credit Policy, Office of the       Funded Depot Level Reparable          Supply Management, Army
Project Manager, Aviation          Credit Policy, Office of the          Activity Group--Army Working
Electronic Systems (6/10/03)       Product Manager, Scout/Attack         Capital Fund (9/23/03)
                                   Helicopters (6/27/03)
A-2003-0307-FFG Review of                                                A-2003-0472-AMW Army
the Army Management Control        A-2003-0324-FFF Mobili-               Working Capital Fund Follow-
Process (Fiscal Year 2002), U.S.   zation and Pay Record                 up, Statement of Budgetary
Army Garrison, Fort Drum           Discrepancies in the Reserve          Resources Journal Voucher
(6/11/03)                          Component (6/30/03)                   Guidance, DFAS
                                                                         (9/26/03)




                                                  34
Semiannual Report to the Congress                                                          Appendix A


A-2003-0433-FFF Military            A-2003-0452-FFG Stored            F2003-0003-FB1000 Centrally
Training Service Support-Pilot      Value Card--Joint Task Force      Billed Accounts for Travel
Test, Fort Lee, Virginia            Bravo (9/30/03)                   (4/24/03)
(9/29/03)
                                    Naval Audit Service               F2003-0004-FB1000
A-2003-0473-AMW Army                                                  Miscellaneous Obligation
Working Capital Fund                N2003-0040 Costs and Benefits     Reimbursement Documents for
Followup--Statement of              of Department of the Navy         Government Furnished Property
Financing, Defense Finance and      Enterprise Resource Planning      Purchases (5/12/03)
Accounting Service (9/29/03)        Solutions (4/16/03)
                                                                      F2003-0006-FB3000 Air Force
A-2003-0475-AMW Aged                N2003-0043 Conference             Working Capital Fund
Accounts, Supply Management,        Expenditures, Naval Hospital,     Contractor Payments (5/15/03)
Army Activity Group, Army           Camp Pendleton, CA (4/30/03)
Working Capital Fund (9/29/03)                                        F2003-0005-FB1000
                                    N2003-0048 Fiscal Year 2001       Comptroller Quality Assurance
A-2003-0407-FFB                     Department of the Navy            Program (7/24/03)
Disbursements Without Obliga-       Working Capital Fund Financial
tions, XVIII Airborne Corps and     Statement Overview (5/8/03)       F2003-0006-FB1000 Office of
Fort Bragg (9/30/03)                                                  Special Investigations
                                    N2003-0049 Office of Naval        Confidential Investigative
A-2003-0408-FFB Disburse-           Research Patent Royalty Check     Contingency Funds (8/11/03)
ments Without Obligations,          Handling Process (5/8/03)
Headquarters 3rd Infantry                                             F2003-0007-FB1000 Official
                                    N2003-0062 Internal Controls      Representation Funds (9/3/03)
Division (Mechanized) and Fort      at Navy Disbursing Activities
Stewart (9/30/03)                   (7/23/03)                         F2003-0007-FB3000
A-2003-0409-FFB Disburse-                                             Accounting for Aircraft
                                    N2003-0066 Managing               Disposal Liabilities (9/8/03)
ments Without Obligations, U.S.     Sponsored Projects at the Naval
Army Garrison, Fort George          Postgraduate School (7/25/03)
G. Meade (9/30/03)                                                    F2003-0008-FB3000 Air Force
                                                                      Working Capital Fund Accounts
                                    N2003-0077 Department of the      Receivable and Accounts
A-2003-0410-FFB                     Navy Review Process for
Disbursement Without                                                  Payable Adjustments (9/10/03)
                                    Potential Anti-Deficiency Act
Obligations, U.S. Army              Violations (8/26/03)
Aviation Center and Fort Rucker
(9/30/03)                                                             ACQUISITION
                                    N2003-0080 Purchase Justifi-
                                    cations at Department of the
A-2003-0411-FFB                     Navy Shore Activities
Disbursements Without Obliga-                                         IG DoD
                                    (9/3/03)
tions, U.S. Army Tank-                                                D-2003-071 Acquisition and
Automotive and Armaments            N2003-0081 Recovery of            Use of Marine Corps Aircraft
Command (9/30/03)                   Overpayments Made to Naval        Simulators (FOR OFFICIAL
                                    Sea Systems Command               USSE ONLY) (4/2/03)
A-2003-0412-FFB                     Contractors and Vendors
Disbursements Without Obliga-       (9/5/03)                          D-2003-076 Document
tions, U.S. Army Special                                              Automation and Production
Operations Command (9/30/03)        N2003-0084 Activity-Based         Service Public/Private
                                    Cost Management in the Navy       Competition (FOR OFFICIAL
A-2003-0413-FFB                     (9/10/03)                         USE ONLY) (4/8/03)
Disbursements Without Obliga-
tions, U.S. Army Acquisition,       Air Force Audit Agency            D-2003-077 Cooperative
Logistics, and Technology                                             Agreements Supporting the
Enterprise Systems and Services     F2003-0005-FB3000 Air Force       Mentor Protégé Program
(9/30/03)                           Progress Payments (4/16/03)       (4/10/03)


                                                  35
Appendix A                                                         Semiannual Report to the Congress


D-2003-083 Acquisition of the    D-2003-105 Management of             Army Audit Agency
Suite of Integrated Radio        Developmental and Operational
Frequency Countermeasures        Test Waivers for Defense             A-2003-0245-AMM Followup
(4/29/03)                        Systems (FOR OFFICIAL USE            on Contracts for Maintenance of
                                 ONLY) (6/20/03)                      Tactical Equipment in the Field
D-2003-086 Use and Control of                                         (4/30/03)
Interdepartmental Purchase       D-2003-106 Administration of
Requests in Air Force Special    Performance-Based Payments           A-2003-0181-FFP Reported
Programs (CLASSIFIED)            Made to Defense Contractors          Baseline Workyears for
(5/7/03)                         (6/25/03)                            Directorate of Public Works'
                                                                      Commercial Activities Study,
D-2003-087 Acquisition           D-2003-103 Status of Extended        U.S. Army Garrison, Hawaii
Management of the RAH-66         Pilot Program on Sales of            (5/5/03)
Comanche ((5/12/03)              Manufactured Articles and
                                 Services at Army Industrial          A-2003-0315-FFP Reported
D-2003-088 Acquisition of the    Facilities (6/27/03)                 Baseline Workyears for the
Chemical Demilitarization                                             Directorate of Logistics'
Program (FOR OFFICIAL USE        D-2003-109 Summary Report            Commercial Activities Study,
ONLY) (5/12/03)                  on the Joint Review of Selected      U.S. Army Garrison, Hawaii
                                 DoD Purchase Card Trans-             (6/13/03)
D-2003-089 Allegations of        actions (6/27/03)
Impropriety in the Selection                                          A-2003-0308-FFF Distance
Process at the Office of the     D-2003-112 Contracting               Learning Facilities and Hard-
Director, Defense Research and   Practices of the Defense             ware (6/24/03)
Engineering (5/12/03)            Security Service for Personnel
                                 Security Investigations (FOR         A-2003-0333-AMA Army
D-2003-090 Use and Control of    OFFICIAL USE ONLY)                   Quality Deficiency Reporting
Military Interdepartmental       (6/27/03)                            Program, Office of the Deputy
Purchase Requests at the Air                                          Chief of Staff, G-4 (6/30/03)
Force Pentagon Communica-        D-2003-115 Allegations
tions Agency (5/13/03)           Concerning the Administration        A-2003-0325-AMA The
                                 of Contracts for Electronic          Army's Purchase Card Program,
D-2003-093 Use and Control of    Flight Instruments on the C-         U.S. Army Soldier and
Military Interdepartmental       130H Aircraft (6/30/03)              Biological Chemical Command
Purchase Requests for Navy                                            Natick/Soldier Systems Center
Special Programs                 D-2003-116 Summary of Office         (7/8/03)
(CLASSIFIED) (5/16/03)           of Management and Budget
                                 Circular No. A-76 Related            A-2003-0344-AMA Selected
D-2003-097 Diamond Jewelry       Report Coverage From FY 1997         Purchases, The Army's Purchase
Procurement Practices at the     through FY 2002 (7/7/03)             Card Program, Fort Monmouth
Army and Air Force Exchange                                           Resident Agency (U.S. Army
Service (6/4/03)                 D-2003-129 Assessment of             Criminal Investigation
                                 DoD Leasing Actions (8/29/03)        Command) (7/28/03)
D-2003-099 Service Contracts
at the National Imagery and      D-2003-128 The Chemical              A-2003-0349-AMA
Mapping Agency (6/6/03)          Demilitarization Program:            Requirements for Models and
                                 Increased Costs for Stockpile        Simulations, Office of the
D-2003-100 Contract              and Non-Stockpile Chemical           Program Manager, Future
Administration at the National   Materiel Disposal Programs           Combat Systems (7/29/03)
Security Agency                  (9/4/03)
(CLASSIFIED) (6/13/03)                                                A-2003-0362-IMT Contract
                                 D-2003-132 Air Force                 Administration for the
                                 Transition of Advanced               Directorate of Installation
                                 Technology Programs to               Support Contract, Fort
                                 Military Applications (9/12/03)      McPherson, Georgia (7/29/03)



                                               36
Semiannual Report to the Congress                                                         Appendix A


A-2003-0373-AMA High                Naval Audit Service               N2003-0070 AN/SPQ-9B Anti-
Mobility Artillery Rocket                                             Ship Missile Defense Radar
System Program, Office of the       N2003-0041 Department of the      Improvement Program (8/7/03)
Product Manager (8/8/03)            Navy Aircraft Engine and
                                    Component Requirements            N2003-0073 Government
A-2003-0403-AMA Common              Determination Process (4/29/03)   Purchase Card at Naval
Hardware Systems Notebook                                             Criminal Investigative Service
Computers (9/3/03)                  N2003-0044 DD-21 Building         European Field Office (8/13/03)
                                    Renovations, Naval Surface
A-2003-0401-AML Small               Warfare Center, Carderock         N2003-0076 Contract Lease
Purchases of Supplies and           Division, Carderock, MD           Agreements for Fleet Informa-
Equipment, South Carolina           (5/1/03)                          tion Technology Equipment
Army National Guard,                                                  (8/18/03)
Columbia, South Carolina            N2003-0045 Earned Value
(9/12/03)                           Management at Program             N2003-0078 Independent
                                    Executive Office for Anti-        Review Utility Services at
A-2003-0446-AMA The                 Submarine Warfare, Assault and    Public Works Center, Norfolk,
Army’s Purchase Card Program,       Special Mission Programs          VA (8/28/03)
U.S. Army Aviation and Missile      (5/2/03)
Command (9/24/03)                                                     N2003-0083 Management of the
                                    N2003-0050 Contractor             Digital Module Radio Program
A-2003-0460-AMW Followup            Logistics Support Oversight       (9/8/03)
Review of Government                (5/15/03)
Purchase Cards, Anniston Army                                         N2003-0085 Independent
Depot (9/24/03)                     N2003-0053 Independent            Review of Industrial Planning
                                    Review of Naval Air Station       Function at Naval Aviation
A-2003-0459-AMA The                 Atlanta Base Operations           Depot North Island, CA
Army’s Purchase Card Program,       Support Services Multifunction    (9/10/03)
Fort Eustis and Fort Monroe,        (6/2/03)
Virginia (9/25/03)                                                    N2003-0086 Independent
                                    N2003-0056 Department of the      Review of Automated Data
A-2003-0464-AMA The                 Navy Commercial Purchase          Processing Support Services at
Army’s Purchase Card Program,       Card Rebate Process (7/10/03)     Naval Surface Warfare Center
Alabama Army National Guard                                           Port Hueneme, CA (9/11/03)
(9/25/03)                           N2003-0057 Department of the
                                    Navy Government Commercial        N2003-0089 Independent
A-2003-0439-AMA The                 Purchase Card Program at the      Review of Public Works Center
Army's Purchase Card Program,       Naval Criminal Investigative      Utilities Function, Washington
U.S. Army Communications-           Service (7/10/03)                 Navy Yard, Washington, D.C.
Electronics Command, Fort                                             (9/12/03)
Monmouth, New Jersey                N2003-0059 Department of the
(9/26/03)                           Navy Government Commercial        N2003-0091 Independent
                                    Purchase Card Program at Naval    Review of Public Works
A-2003-0448-AMW Aviation            Criminal Investigative Service    Department, Naval Postgraduate
Tracked Components, U.S.            Far East Office (7/15/03)         School, Monterey, CA (9/17/03)
Army Aviation and Missile
Command, for the Deputy Chief       N2003-0067 Impact of Program      N2003-0092 Naval Air Systems
of Staff, G-4 (9/29/03)             Assessments on DON Systems        Command Commercial
                                    Acquisition (7/28/03)             Purchase Card Program
A-2003-0456-FFG Army                                                  (9/24/03)
Government Purchase Card            N2003-0069 MK 48 ADCAP
(9/30/03)                           Torpedo Modifications             N2003-0094 Management of
                                    Programs (CLASSIFIED)             the Fleet Credit Card Program
                                    (8/5/03)                          (9/29/03)




                                                  37
Appendix A                                                          Semiannual Report to the Congress


Air Force Audit Agency            F2003-0010-FC1000 Air Force          D-2003-108 Allegations
                                  Weather Agency, Offutt AFB,          Concerning the Egyptian Navy
F2003-0003-FC3000 Air Force       Technology Exploitation Branch       Frigate Program (6/27/03)
New Start Notification Process    (A-76 Direct Conversion)
(4/14/03)                         (8/18/03)                            D-2003-120 F/A-18E/F
                                                                       Integrated Readiness Support
F2003-0004-FC1000 Wright-         F2003-0011-FC1000 Air Force          Teaming (First) Program (FOR
Patterson AFB Weather             Weather Agency, Offutt AFB,          OFFICIAL USE ONLY)
Services A-76 Direct              Data Assurance and Distribution      (8/8/03)
Conversion (4/16/03)              Branch Programming Function
                                  (A-76 Direct Conversion)             D-2003-125 Condition Based
F2003-0004-FC3000 Joint Air-                                           Maintenance-Plus (8/27/03)
to-Surface Standoff Missile       (8/18/03)
(4/17/03)                         F2003-0012-FC1000 Air                D-2003-130 Accountability and
                                  Combat Command, Langley              Control of Materiel at the Ogden
F2003-0005-FC1000 95th                                                 Air Logistics Center (9/5/03)
Mission Support Squadron          AFB, Hazardous Material
Human Resources Development       Pharmacy (A-76 Direct
                                  Conversion) (8/18/03)                Army Audit Agency
Services, Edwards AFB, CA (A-
76 Cost Comparison) (5/12/03)                                          A-2003-0006-IMU Followup
                                  F2003-0013-FC1000                    Audit of Recommendation E-1,
F2003-0005-FC3000                 Vandenberg AFB Air Traffic           Audit Report: AA98-138, U.S.
Acquisition Management of the     Control Services (A-76 Direct        Army Field Support Command,
Joint Primary Aircraft Training   Conversion) (9/2/03)                 Rock Island, Illinois (4/2/03)
System (5/13/03)                  F2003-0006-FC3000 Cost               A-2003-0206-AMM Depot-
F2003-0006-FC1000 4th             Performance Following an             Level Maintenance Workload
Fighter Wing, Operations and      Office of Management and             Reporting - FY 01 and Outyears
Maintenance of Central Steam      Budget Circular A-76 Review          (4/3/03)
Plants, Seymour Johnson AFB       (9/2/03)
NC (A-76 Direct Conversion)                                            A-2003-0231-FFP Planning for
                                  F2003-0008-FB1000 Air Force          the Implementation of Single
(5/15/03)                         Travel Card Program (9/11/03)        Stock Fund Milestone 3, Eighth
F2003-0004-FD3000 Task                                                 U.S. Army (4/10/03)
Force Enduring Look Contractor
                                  LOGISTICS                            A-2003-0224-AML Followup
Support (6/16/03)
                                                                       Audit of Selected Aspects of
F2003-0007-FC1000 1st             IG DoD                               U.S. Army Forces Command
Fighter Wing, Red Switch,                                              Materiel Management Center
Langley AFB VA (A-76 Direct       D-2003-085 International DoD         Operations, U.S. Army Forces
Conversion) (7/2/03)              Air Freight Tenders (4/30/03)        Command, Fort McPherson,
                                                                       Georgia (4/21/03)
F2003-0008-FC1000 Air Force       D-2003-098 Followup Audit of
Weather Agency,                   Depot-Level Repairable Assets        A-2003-0223-AMA Criteria
Meteorological Models Branch      at Selected Army and Navy            Used to Stock Repair Parts in
Programming Function, Offutt      Organizations (6/5/03)               the Army's Wholesale Supply
AFB NE (A-76 Direct                                                    System (4/30/03)
Conversion) (7/31/03)             D-2003-101 Law Enforcement
                                  Support Office Excess Property       A-2003-0255-AMM Work
F2003-0009-FC1000 Hurlburt        Program (6/13/03)                    Order Logistics File,
Field Personnel Data Systems                                           Maintenance Data Integration
Administration (A-76 Direct       D-2003-107 DoD Petroleum             (5/12/03)
Conversion (8/18/03)              War Reserve Requirements
                                  (CLASSIFIED) (6/26/03)




                                                38
Semiannual Report to the Congress                                                         Appendix A


A-2003-0279-AML                     A-2003-0359-FFP Operational       Naval Audit Service
Operational Project Stocks -        Project PYA (Aircraft Matting),
Phase II (Collective Support        Eighth U.S. Army (7/17/03)        N2003-0079 The Norway Air-
Project) (5/27/03)                                                    Landed Marine Expeditionary
                                    A-2003-0355-IMU U.S. Army         Brigade Prepositioning Program
A-2003-0256-AMM Work                Base Operations Maintenance       (9/2/03)
Order Logistics File, Accuracy      Center-Europe, U.S. Army
and Use (5/30/03)                   Installation Management           N2003-0082 Reporting of
                                    Agency, Europe Region             Depot Maintenance Workload
A-2003-0294-IMU Audit of            (7/18/03)                         Allocation Between Public and
Operation Enduring Freedom--                                          Private Sectors (9/5/03)
Property Accountability (6/2/03)    A-2003-0370-IMU Audit of
                                    Operation Enduring Freedom--      Air Force Audit Agency
A-2003-0280-AMW                     In-Transit Visibility (7/24/03)   F2003-0006-FC2000 Follow-
Authorized Stockage Lists                                             up Audit, Landing Gear Repair
Roundout Repair Parts (6/9/03)      A-2003-0391-FFP Non-              Operations (4/18/03)
                                    Tactical Vehicles, U.S. Army
A-2003-0289-AML Asset               Garrison, Japan (8/8/03)          F2003-0011-FC4000 KC-135
Status Transactions (6/13/03)                                         Aircraft Engine Replacement
                                    A-2003-0392-AMM Depot-            Requirements (4/21/03)
A-2003-0305-AMM Staffing            Level Maintenance Workload
and Capacity of Tables of           Reporting - FY 02 (8/11/03)       F2003-0010-FC4000 Other
Distribution and Allowances                                           War Reserve Materiel (5/2/03)
Maintenance Activities              A-2003-0400-IMU Audit of
(6/17/03)                           Operation Enduring Freedom--      F2003-0007-FC2000 Aircraft
                                    Class IX Aviation Spare Parts     Workload Planning (5/5/03)
A-2003-0303-AML Army                (8/19/03)
Total Asset Visibility Capability                                     F2003-0012-FC4000 Aircraft
(6/18/03)                           A-2003-0422-AML                   Transparency Requirements
                                    Operational Project Stocks -      (5/6/03)
A-2003-0302-IMU                     Phase II (8/28/03)
Reimbursable Workorders, U.S.                                         F2003-0008-FC2000 Saudi
Army Base Operations                A-2003-0436-AMM National          Arabia F-15 (Peace Sun)
Maintenance Center-Europe           Maintenance Program Standards     Foreign Military Sales Program
(6/25/03)                           (9/10/03)                         Management (7/3/03)
A-2003-0323-FFP Operational         A-2003-0447-FFP Operational       F2003-0005-FD3000 Space
Project Stock Requirements,         Projects--Project PEH             Systems Logistics Support
U.S. Army, Pacific (6/25/03)        (Bridging), Eighth U.S. Army,     (8/5/03)
                                    Korea (9/18/03)
A-2003-0339-AML                                                       F2003-0009-FC2000 Follow-
Operational Project Stocks -        A-2003-0457-FFP Operational       up Audit, Materiel Management
Phase II (Conus Replacement         Projects, Project PYT and PYX     Transition (9/4/03)
Centers) (6/26/03)                  (Mortuary Affairs), Eighth U.S.
                                    Army (9/25/03)
A-2003-0353-IMU Operational                                           READINESS
Project Stock Requirements for      A-2003-0463-AMW Aviation
Bridging, U.S. Army, Europe         Spare Parts Requirements, U.S.
and Seventh Army (7/10/03)          Army Aviation and Missile         IG DoD
                                    Command (9/25/03)
A-2003-0354-IMU Operational                                           D-2003-102 Office of the
Projects in Europe, U.S. Army,      A-2003-0445-AMA Industrial        Secretary of Defense Disaster
Europe and Seventh Army             Preparedness Planning for         Preparedness (CLASSIFIED)
(7/10/03)                           Ammunition (9/26/03)              (6/17/03)




                                                   39
Appendix A                                                        Semiannual Report to the Congress


Army Audit Agency               D-2003-078 Global Command            N2003-0065 Department of the
                                and Control System Joint             Navy Antiterrorism
A-2003-0443-FFF Mobiliza-       Operation Planning and               Vulnerability Assessment
tion Deployment Integration     Execution System (4/15/03)           Management Program (7/24/03)
System (9/30/03)
                                D-2003-110 Defense Civilian          N2003-0088 Funding and
Naval Audit Service             Personnel Data System                Management of SMART
N2003-0042 Managing             Functionality and User               WebMove (9/12/03)
Commander Fleet Forces          Satisfaction (6/27/03)
Command Development                                                  Air Force Audit Agency
(4/29/03)                       D-2003-117 Systems Inventory
                                to Support the Financial             F2003-0011-FB4000 Air
                                Management Enterprise                Traffic Control Tower Simulator
N2003-0052 Management of                                             System (7/28/03)
Marine Corps Combat Essential   Architecture (7/10/03)
Personnel (5/23/03)                                                  F2003-0001-FB2000 Job Order
                                Army Audit Agency
                                                                     Cost Accounting System II
N2003-0061 Effectiveness of     A-2003-0236-FFB Resource             Controls and Accounting
Marine Corps Ground Forces      Transfers for U.S. Army              Conformance (8/12/03)
Training (7/23/03)              Network Enterprise Technology
                                Command, Deputy Under                F2003-0016-FB4000 Air Force
N2003-0075 Effectiveness of                                          Migration From Wideband to
Marine Corps Ground Forces      Secretary of the Army; Chief
                                Information Officer/G-6              Narrowband Frequency
Training (Naval Audit Service                                        Assignments (9/15/03)
Recommendation to U.S.          (4/25/03)
Army’s Deputy Chief of Staff    A-2003-0239-AMM Interactive
for Operations) (8/18/03)       Electronic Technical Manuals         INFRASTRUCTURE AND
N2003-0090 Verification of      (5/9/03)                             ENVIRONMENT
Status of Resources and         A-2003-0360-FFG Validation
Training System Reporting by    of the Deployable Disbursing         IG, DoD
Selected Marine Corps F/A-18    System - Defense Finance and
Squadrons (9/16/03)                                                  D-2003-081 DoD Explosives
                                Accounting Service (7/21/03)
                                                                     Safety Program Oversight
Air Force Audit Agency          A-2003-0371-IMU Operation            (4/24/03)
F2003-0006-FD3000 Special       Enduring Freedom--Use of
                                                                     D-2003-096 Protection of the
Tactics and Air Support         Identification Technology for
                                                                     European Theater’s Nuclear
Operations Group Equipment      In-Transit Visibility (7/24/03)
                                                                     Command and Control System
Requirements (FOR OFFICIAL                                           and Capabilities Against Radio
USE ONLY) (8/5/03)              A-2003-0423-FFB Joint
                                Telecommunications Task              Frequency Threats
                                Force--Armywide Issues, Chief        (CLASSIFIED) (6/6/03)
INFORMATION                     Information Officer/G-6
                                                                     D-2003-104 Department of
TECHNOLOGY                      (9/5/03)
                                                                     Defense Policies and Procedures
MANAGEMENT                      Naval Audit Service                  to Implement the Rural
                                                                     Development Act of 1972
                                N2003-0060 Reliability and           (6/17/03)
IG DoD                          Validity of the Optimized Naval
                                Aviation Logistics Command           D-2003-121 DoD Fire and
D-2003-075 Transition From
                                Management Information               Emergency Services Program
the Automatic Digital Network
                                System (7/22/03)                     (8/12/03)
to the Defense Message System
(4/8/03)




                                               40
Semiannual Report to the Congress                                                          Appendix A


Army Audit Agency                   A-2003-0380-IME Remedia-           D-2003-092 Washington Head-
                                    tion and Disposal Strategies for   quarters Service’s Implementa-
A-2003-0216-IMO Privatiza-          Inactive Reactors, U.S. Army       tion of the Government
tion of Utility Distribution        Corps Of Engineers,                Information Security Reform
Systems, Fort Hamilton, New         Washington, DC (8/4/03)            (FOR OFFICIAL USE ONLY)
York (4/11/03)                                                         (5/15/03)
                                    A-2003-0389-IME Manage-
A-2003-0220-IMU Army                ment of Installation Environ-      D-2003-114 Defense Logistics
Family Housing Leasing              mental Programs (8/7/03)           Agency’s Implementation of the
Outside Germany, U.S. Army                                             Government Information
Installation Management             A-2003-0424-IMO Garrison/          Security Reform (FOR
Agency, Europe Region               Mission Workload at the            OFFICIAL USE ONLY)
(4/15/03)                           National Training Center and       (6/30/03)
                                    Fort Irwin (8/28/03)
A-2003-0252-IMO                                                        D-2003-126 Interagency
Privatization of Family Housing,    A-2003-0434-IME Range              Summary Report on Security
Fort Hood, Texas (5/8/03)           Sustainment (9/9/03)               Controls Over Biological
A-2003-0266-IMO Base                                                   Agents (CLASSIFIED)
                                    Naval Audit Service                (8/27/03)
Realignment and Closure Open
Burn/Open Detonation Project,       N2003-0054 Management of
                                    Hazardous Material at Selected     D-2003-134 System Security of
Seneca Army Depot Activity,                                            the Army Corps of Engineers
New York (5/20/03)                  Department of the Navy Shore
                                    Installations and Activities       Financial Management System
A-2003-0274-IME                     (6/18/03)                          (FOR OFFICIAL USE ONLY)
Management of Installation                                             (9/15/03)
Environmental Programs, U.S.        N2003-0064 Hazardous
                                    Materials Control and              Army Audit Agency
Army Yuma Proving Ground,
Yuma, Arizona (5/23/03)             Management Aboard Selected         A-2003-0247-FFC Corps of
                                    Ships in the Atlantic Fleet        Engineers Financial Manage-
A-2003-0320-IME                     (7/23/03)                          ment System - Electronic
Management of Installation                                             Signature Controls, U.S. Army
Environmental Programs, III         N2003-0093 Military                Corps Of Engineers (4/25/03)
Corps and Fort Hood, Texas          Construction, Navy Projects
(6/25/03)                           Proposed for Fiscal Years 2005/    A-2003-0283-FFB Selected
                                    2006 (9/29/03)                     Aspects of Information, Fort
A-2003-0337-IMO Electrical                                             Lewis, Washington (5/30/03)
Distribution System Contract,       Air Force Audit Agency
Virginia Army National Guard        F2003-0002-FD1000 Military         A-2003-0287-FFB Selected
Maneuver Training Center, Fort      Family Housing Privatization -     Aspects of Information
Pickett, Virginia (6/27/03)         Patrick AFB (4/14/03)              Assurance, Fort Knox,
                                                                       Kentucky (6/5/03)
A-2003-0335-IME Manage-
ment of Installation Environ-                                          A-2003-0366-FFB The Army's
                                    HOMELAND SECURITY
mental Programs, Fort Lewis,                                           FY 01 Response to DoD for the
Washington (7/3/03)                                                    Government Information
                                    IG DoD                             Security Reform Act (8/5/03)
A-2003-0342-FFP Energy
Savings Performance Contract,       D-2003-080 Allegation              Naval Audit Service
U.S. Army Garrison, Alaska          Concerning Information
(7/16/03)                           Assurance Management at the        N2003-0051 Weapon Systems
                                    Defense Logistics Agency (FOR      Information Available on the
                                    OFFICIAL USE ONLY)                 Internet (5/20/03)
                                    (4/21/03)




                                                   41
Appendix A                                                         Semiannual Report to the Congress


N2003-0055 Department of the     F2003-0015-FB4000 Controls           N2003-0087 Marine Corps East
Navy Antiterrorism Risk          Over Web Applications (FOR           Coast Bases’ Utilization of
Assessment Management            OFFICIAL USE ONLY)                   Combat Essential Personnel
Approach for Naval District      (9/2/03)                             (9/11/03)
Washington (6/25/03)
                                                                      Air Force Audit Agency
N2003-0071 Intrusion             HUMAN CAPITAL
Vulnerability of the Corporate                                        F2003-0001-FD2000 Quick
Enterprise Training Activity                                          Reaction Report, Controls Over
Resource System (8/8/03)         Army Audit Agency                    the Army and Air Force
                                                                      Exchange Service - Cash
                                 A-2003-0166-FFF Courseware           Discounts (FOR OFFICIAL
Air Force Audit Agency           Development for Distance             USE ONLY) (6/10/03)
F2003-0008-FB4000 United         Learning, U.S. Army Training
States Air Forces in Europe      And Doctrine Command                 F2003-0001-FD4000 Initial
Information Security Program     (5/2/03)                             Enlistment Bonus Program
and Practices (FOR OFFICIAL                                           (8/4/03)
USE ONLY) (4/16/03)              A-2003-0306-FFP Workers'
                                 Compensation, U.S. Army              F2003-0002-FD2000 Air Force
F2003-0009-FB4000 Controls       Pacific, Fort Shafter, Hawaii        Drug Testing Laboratory
Over Classified Web Pages        (6/16/03)                            (8/21/03)
(FOR OFFICIAL USE ONLY)
(4/17/03)                        A-2003-0329-FFB Workers'
                                 Compensation Program                 HEALTH CARE
F2003-0003-FD3000                (6/26/03)
Memorandum Report, Home-
land Security Policy (6/11/03)   A-2003-0301-IMU                      IG DoD
                                 Administrative Burden on Units,
                                 1st Infantry Division, U.S.          D-2003-113 Franchise Business
F2003-0010-FB4000 Air Force
                                 Army, Europe and Seventh             Activity Contracts for Medical
Space Command Information
                                 Army (6/27/03)                       Services (6/30/03)
Security Program and Practices
(FOR OFFICIAL USE ONLY)                                               Army Audit Agency
(6/30/03)                        A-2003-0312-AMA Projected
                                 Personnel Savings, U.S. Army         A-2003-0286-IMH Contracting
F2003-0012-FB4000 Air            Contracting Agency (6/30/03)         for Medical Goods and Services,
Combat Command Information                                            Contract DADA10-01-C-0010,
Security Program and Practices   A-2003-0415-FFF Advanced             U.S. Army Medical Command
(FOR OFFICIAL USE ONLY)          Individual Training Courses,         (6/5/03)
(8/14/03)                        U.S. Army Air Defense Artillery
                                 School, Fort Bliss, Texas            A-2003-0336-FFP Third Party
F2003-0013-FB4000 Air Force      (8/27/03)                            Claims, Tripler Army Medical
Materiel Command Information                                          Center, Honolulu, Hawaii
Security Program and Practices   Naval Audit Service                  (6/26/03)
(FOR OFFICIAL USE ONLY)          N2003-0047 Use of Navy
(8/19/03)                        Recruiters to Perform                A-2003-0352-IMH Unpaid
                                 Administrative and Support Jobs      Medical Claims for FYs 99-00
F2003-0014-FB4000 Certifica-                                          at Madigan Army Medical
                                 (5/6/03)
tion and Accreditation of Air                                         Center, U.S. Army Medical
Force Classified Systems (FOR    N2003-0063 Civilianizing the         Command (7/17/03)
OFFICIAL USE ONLY)               Marine Corps Nonappropriated
(8/20/03)                        Fund Audit Service (7/23/03)         A-2003-0369-IMH Unpaid
                                                                      Medical Claims for FY 01 at
                                 N2003-0072 Justification of          Madigan Army Medical Center,
                                 Military Billets (8/8/03)            U.S. Army Medical Command
                                                                      (7/22/03)



                                                42
Semiannual Report to the Congress                                                        Appendix A


A-2003-0406-IMH Followup            D-2003-131 Cooperative Threat    A-2003-0428-AMA The Unit
Issues-Administrative Controls      Reduction Program: Solid         Set Fielding Process (9/17/03)
Over Sensitive Drugs, Madigan       Rocket Motor Disposition
Army Medical Center, Tacoma,        (9/11/03)                        Naval Audit Service
Washington (8/21/03)                                                 N2003-0046 Program C
                                    Army Audit Agency
                                                                     (CLASSIFIED) (5/2/03)
                                    A-2003-0270-IMT
OTHER                                                                N2003-0058 Program D
                                    Management Control Process,
                                    California Army National Guard   (CLASSIFIED) (7/14/03)
IG DoD                              (5/21/03)
D-2003-069 Interagency              A-2003-0292-FFP Federal
Review of Federal Export            Oversight of the Hawaii
Enforcement Efforts (FOR            National Guard (6/12/03)
OFFICIAL USE ONLY)
(4/18/03)




                                                  43
Appendix B                                                               Semiannual Report to the Congress



                                     APPENDIX B*
                      OIG DOD AUDIT REPORTS ISSUED CONTAINING
                     QUANTIFIABLE POTENTIAL MONETARY BENEFITS



                                                                               Potential Monetary
                                                                                    Benefits

                      Audit Reports Issued                                                    Funds Put
                                                                           Disallowed
                                                                                               to Better
                                                                             Costs1
                                                                                                  Use
 D-2003-107 DoD Petroleum War Reserve Requirements (U)                          N/A              $20,400,000
 (6/26/03)
 D-2003-119 Controls Over DoD Medicare Eligible Retiree Health                  N/A            6,900,000,000
 Care Fund Investments (7/31/03)
 D-2003-130 Accountability and Control of Materiel at the Ogden Air             N/A               20,400,000
 Logistics Center (9/5/03)
 Totals                                                                                      $6,940,800,000
 1There   were no OIG audit reports during the period involving disallowed costs.



* Partially fulfills the requirement of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
Section 5(a)(6) (See Appendix A).




                   Waivers of Advisory and Assistance Service Contracts

  A review is made of each waiver granted by the Department for advisory and assistance services
  contracts related to testing support. This review is required by Section 802, Defense
  Authorization Act for Fiscal Year 1990.

  The Department made no waivers during the period and therefore, no reviews were made by
  the OIG.




                                                      44
Semiannual Report to the Congress                                                                    Appendix C


                                            APPENDIX C*
                                        FOLLOWUP ACTIVITIES



       DECISION STATUS OF INSPECTOR GENERAL ISSUED REPORTS WITH
           RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                              ($ in thousands)
                                                                                                 Funds Put
                                   Status                                         Number          to Better
                                                                                                    Use1
 A. For which no management decision had been made by the                               22         $123,400
         beginning of the reporting period.
 B. Which were issued during the reporting period.                                      61        6,940,800
      Subtotals (A+B)                                                                   83        7,064,200
 C. For which a management decision was made during the reporting                       57           90,000
         period.
      (i)    dollar value of recommendations that were agreed to by
             management
             - based on proposed management action                                                   21,800
             - based on proposed legislative action
      (ii)   dollar value of recommendations that were not agreed to by                              68,2002
             management
 D. For which no management decision has been made by the end of                        26        6,974,200
         the reporting period.

      Reports for which no management decision was made within 6
            months of issue (as of September 30, 2003).                                 33           33,400
 1There were no OIG DoD audit reports issued during the period involving “disallowed costs.”
 2Management
               has agreed to take the recommended actions, but the amount of agreed monetary benefits cannot
  be determined until those actions are completed.
 3OIG DoD Report No. D-2003-023, “The Reserve Retirement Repository System,” issued November 15,
  2002, and OIG DoD Report No. D-2003-061, “The Development of the Navy Standard Integrated Personnel
  System,” issued March 12, 2003, had no management decision as of Sepember 30, 2003. OIG DoD Report
  No. D-2003-021; “Export Controls Over Biological Agents,” issued November 12, 2002, also had no
  management decision as of September 30, 2003, but was decided October 1, 2003.




*Fulfills requirements of the Inspector General Act of 1978, as amended, 5 U.S.C., Appendix 3,
 Section 5(a)(8)(9)&(10).




                                                       45
Appendix D                                                                   Semiannual Report to the Congress


                                           APPENDIX D
                                 CONTRACT AUDIT REPORTS ISSUED1
                                          ($ in millions)



                                        Reports         Amounts              Questioned          Funds Put to
     Type of Audit2
                                        Issued*         Examined               Costs3             Better Use
 Incurred Costs, Ops                        15,997         $53,336.9               $675.1                $90.34
 Audits, Special Audits
 Forward Pricing                              5,145        $98,920.2                     --           $3,977.75
 Proposals
 Cost Accounting                              1,304            $149.7               $43.5                      --
 Standards
 Defective Pricing                              394           (Note 6)              $37.9                      --
 Totals                                     22,840        $152,406.8               $756.5              $4,068.0
 1This
        schedule represents Defense Contract Audit Agency (DCAA) contract audit reports issued during the
  6 months ended September 30, 2003. Both “Questioned Costs” and “Funds Put to Better Use” represent
  potential cost savings. Because of limited time between availability of management information system data
  and legislative reporting requirements, there is minimal opportunity for the DCAA to verify the accuracy of
  reported data. Accordingly, submitted data is subject to change based on subsequent DCAA authentication.
 2This schedule represents audits perfomed by DCAA summarized into four principal categories, which are

  defined as:
       Incurred Costs - Audits of direct and indirect costs charged to Government contracts to determine that the
  costs are reasonable, allocable, and allowable as prescribed by the Federal Acquisition Regulation, Defense
  Federal Acquisition Regulation, and provisions of the contract. Also included under incurred cost audits are
  Operations Audits, which evaluate a contractor’s operations and management practices to identify
  opportunities for increased efficiency and economy; and Special Audits, which include audits of terminations
  and claims.
         Forward Pricing Proposals - Audits of estimated future costs of proposed contract prices, proposed
  contract change orders, costs for redeterminable fixed-price contracts, and costs incurred but not yet covered
  by definitized contracts.
        Cost Accounting Standards - A review of a contractor’s cost impact statement required due to changes to
  disclosed practices, failure to consistently follow a disclosed or established cost accounting practice, or
  noncompliance with a CAS regulation.
       Defective Pricing - A review to determine whether contracts are based on current, complete, and accurate
  cost or pricing data (the Truth in Negotiations Act).
 3Questioned costs represent costs that DCAA has questioned because they do not comply with rules,

  regulations, laws, and/or contractual terms.
 4Represents recommendations associated with Operations Audits where DCAA has presented to a contractor

  that funds could be used more effectively if management took action to implement cost reduction
  recommendations.
 5Represents potential cost reductions that may be realized during contract negotiations.
 6Defective pricing dollars examined are not reported because the original value was included in the audits

  associated with the original forward pricing proposals.
*Applies to Army Corps of Engineers and DCAA only.




                                                         46
Semiannual Report to the Congress                                                                         Appendix E


                                APPENDIX E
      STATUS OF ACTION ON SIGNIFICANT POST-AWARD CONTRACT AUDITS1
                              ($ in thousands)



                                   Number of                  Costs
                                    Reports                 Questioned                 Disallowed Costs6

Open Reports:

     Within Guidelines2                       431                  $421,744                                  N/A7

     Overage, greater than 6                  269                  $613,133                                  N/A
     months3
     Overage, greater than                    252                  $875.613                                  N/A
     12 months4

     In Litigation5                           173               $2,547,892                                   N/A

Total Open Reports                          1,125               $4,458,382                                   N/A
Closed Reports                                425                  $974,990                 $390,464 (40.05%)
All Reports                                 1,550               $5,433,372                                   N/A
 1
  This schedule represents the status of Defense Contract Audit Agency reports on incurred costs, defective pricing,
  and noncompliance with the Cost Accounting Standards as reported by the Army, Navy, Air Force, Defense
  Contract Management Agency, and TRICARE. Contract audit followup is reported in accordance with DoD
  Directive 7640.2, “Policy for Followup on Contract Audit Reports.” Because of limited time between availability of
  the data and reporting requirements, there is minimal opportunity to verify the accuracy of the reported data.
 2These reports are being processed within the time frames established by OMB Circular A-50, Audit Followup, and

  DoD Directive 7640.2.
 3OMB Circular A-50 requires that audit reports be resolved (the contracting officer decides on a course of action)

  within 6 months after report issuance.
 4
  DoD Directive 7640.2 states that audit reports are overage if not dispositioned within 12 months from date of
  issuance. Disposition is achieved when the contractor implements audit recommendations, the contracting officer
  negotiates a settlement with contractor, or the report is superseded.
 5
  Of the 173 reports in litigation, 25 are under criminal investigation.
 6Disallowed costs are costs sustained by the contracting officer in negotiations with contractors.
 7N/A (not applicable)




                                                          47
